<html>
<title> - ANTI-SEMITISM: A GROWING THREAT TO ALL FAITHS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                            ANTI-SEMITISM: 
                     A GROWING THREAT TO ALL FAITHS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2013

                               __________

                           Serial No. 113-15

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

79-580 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Katrina Lantos Swett, Ph.D., chair, U.S. Commission on 
  International Religious Freedom................................     9
Mr. Eric Metaxas, author and commentator.........................    20
Zuhdi Jasser, M.D., president, American Islamic Forum for 
  Democracy......................................................    26
Mr. John Garvey, president, The Catholic University of America...    39
Ms. Elisa Massimino, president and chief executive officer, Human 
  Rights First...................................................    45
Tamas Fellegi, Ph.D., managing partner, EuroAtlantic Solutions 
  (former Minister of National Development, Government of 
  Hungary).......................................................    77
Mr. Willy Silberstein, chairman, Swedish Committee Against Anti-
  Semitism.......................................................    85
Rabbi Andrew Baker, personal representative on combating anti-
  Semitism, Office of the Chairperson-in-Office, Organization for 
  Security and Co-operation in Europe............................    89
Rabbi David Meyer, professor of Rabbinic Literature and 
  Contemporary Jewish Thought, Pontifical Gregorian University...   119
Rabbi Yaakov Bleich, Chief Rabbi of Kiev and Ukraine.............   128
Mr. Andrew Srulevitch, director of European Affairs, Anti-
  Defamation League..............................................   133

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Prepared statement..............................     4
Katrina Lantos Swett, Ph.D.: Prepared statement..................    13
Mr. Eric Metaxas: Prepared statement.............................    23
Zuhdi Jasser, M.D.: Prepared statement...........................    29
Mr. John Garvey: Prepared statement..............................    41
Ms. Elisa Massimino: Prepared statement..........................    48
Tamas Fellegi, Ph.D.: Prepared statement.........................    80
Mr. Willy Silberstein: Prepared statement........................    87
Rabbi Andrew Baker: Prepared statement...........................    92
Rabbi David Meyer: Prepared statement............................   122
Rabbi Yaakov Bleich: Prepared statement..........................   131
Mr. Andrew Srulevitch: Prepared statement........................   135

                                APPENDIX

Hearing notice...................................................   170
Hearing minutes..................................................   172
The Honorable Christopher H. Smith:..............................
  Statement of Mr. Mark Weitzman, Director of Government Affairs, 
    Simon Wiesenthal Center......................................   173
  Statement of Rev. Dr. C. Welton Gaddy, President of Interfaith 
    Alliance.....................................................   178

 
                            ANTI-SEMITISM: 
                     A GROWING THREAT TO ALL FAITHS

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

          Global Human Rights, and International Organizations

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 9 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The committee will come to order, and good 
morning to everyone. Thank you for being here bright and early. 
And I want to welcome you to this, what I believe and we 
believe to be a very important hearing on anti-Semitism and 
combating anti-Semitism, with a particular emphasis on Europe.
    At a congressional hearing that I chaired in 2002 on 
combating anti-Semitism, Dr. Shimon Samuels of the Wiesenthal 
Center in Paris testified and said, ``The Holocaust for 30 
years after the war acted as a protective teflon against 
blatant anti-Semitic expression, especially in Europe. That 
teflon,'' he said, ``has eroded, and what was considered 
distasteful and politically incorrect is becoming simply an 
opinion. But,'' he warned ominously, ``cocktail chatter at fine 
English dinners can end in Molotov cocktails against 
synagogues.''
    In response to what appeared to be a sudden frightening 
spike in anti-Semitism in several countries, including here in 
the United States, we first proposed the idea for a conference 
on combating anti-Semitism under the auspices of the 
Organization for Security and Cooperation in Europe. Convinced 
we had an escalating crisis on our hands, we teamed with 
several OSCE partners to push for action and reform. Many of 
the people and the NGOs present in this room played a leading 
part.
    Rabbi Baker will remember so well how we worked on several 
important initiatives including language and plans of action. 
These efforts directly led to important OSCE conferences on 
combating anti-Semitism. As I think many of you know, they 
occurred in places like Vienna, Berlin, Cordoba, and Bucharest. 
In each of those, participating states made solemn, tangible 
commitments to put our words into action. In some countries 
progress has been made, yet the scope and outcome of anti-
Semitic acts has not abated in others, and in some nations it 
has actually gotten worse.
    That is why we are here today, to review, to recommit, and 
to reenergize efforts to vanquish the highly disturbing 
resurgence of anti-Semitism everywhere, including in Europe. 
Unparalleled since the dark days of the Second World War, 
Jewish communities on a global scale are facing verbal 
harassment and sometimes violent attacks against synagogues, 
Jewish cultural sites, cemeteries, and individuals. It is an 
ugly reality that won't go away by ignoring it or by wishing it 
away. It must be defeated. Thus, we gather to enlighten, 
motivate, and share best practices on how not just to mitigate 
this centuries old obsession, but to crush this pernicious form 
of hate.
    From our first panel of witnesses we are going to hear how 
anti-Semitism directly threats not only Jews, but also 
Christians and Muslims and democracy and civil society. We are 
all in this together. When we fight anti-Semitism it is not 
only a matter of justice for Jewish fellow citizens, but also 
standing up for Christianity and for Islam and for the 
possibility of a decent living itself. We all have a direct 
stake in the fight against anti-Semitism.
    This is tragically clear in the Middle East countries where 
the governments propagate anti-Semitism as an official or 
quasi-official idealogy. These governments incite anti-Semitic 
hatred of Israel in order to distract the people from their own 
tyrannical rule and from their own abuse of human rights, 
denial of democracy, economic corruption and the like. Sadly, 
it works. We see this in governments as varied as those of Iran 
and Egypt, Pakistan and Syria and Saudi Arabia, and the list of 
course doesn't end there. Tens of millions of people who live 
in these communities are in this sense suffering from anti-
Semitism. Few of them are Jewish. Most are Muslims. Millions 
are Christian. It is true that to some degree or other, many of 
the people in these countries have bought into the evil of 
anti-Semitism, but many thankfully have not.
    From our second panel we are also going to hear reports 
from a number of European Jewish leaders who will be able to 
tell us firsthand about anti-Semitism in their countries and 
the region, and how the governments are responding and whether 
these responses are effective and adequate. Sadly, in much of 
Europe the harassment of Jews including verbal and physical 
violence continues to increase, and a recent Anti-Defamation 
League study shows that anti-Semitic attitudes are widespread 
in Europe and getting worse in many countries.
    One thing the witnesses will address is whether elected 
officials are fulfilling their responsibility to speak out 
publicly against any expression of anti-Semitic hate. When the 
national leaders fail to denounce anti-Semitic violence and 
slurs the void is not only demoralizing to the victims, but 
silence actually enables the wrongdoing. Silence by elected 
officials in particular conveys approval or at least 
acquiescence and can contribute to a climate of fear and a 
profound sense of vulnerability.
    Another point we have to consider is whether the countries 
are collecting reliable hate crime information. We can't fight 
anti-Semitic crimes effectively unless we have reliable 
information on them. The most recent figures from the United 
States, for example, which are collected by the FBI, show that 
Jews, although they are only 2 percent of the United States' 
population, they are the victims of 63 percent of religiously 
targeted hate crimes. An additional concern is the importance 
of Holocaust education. If we are to protect our children from 
the dark evil of anti-Semitism we must reeducate ourselves and 
systematically educate our children. While that starts in our 
homes, the classroom must be an incubator of tolerance and 
respect. It seems to me only the most hardened racist can 
remain unmoved by Holocaust education and remembrance. Only the 
most crass, evil, and prejudiced among us can study the horrors 
of the Holocaust and not cry out, never again.
    Yet another concern is the rise of the new anti-Semitism, 
which tries to pass itself off as legitimate criticism of 
Israel, but which demonizes, delegitimizes, and applies double 
standards against Israel--former Soviet refusenik Natan 
Sharansky's three ``d''s. In any case, this form of anti-
Semitism appears to be spreading among European social 
democratic and leftist parties as well as among Muslim 
immigrants from the Middle East, and I would like to hear the 
views of our distinguished witnesses on that as well.
    I look forward to our witnesses' statements, and I would 
ask that my full statement be made a part of the record. 
Without objection, that and all of my colleagues, their full 
statements will be made a part of the record. I would like to 
now yield to Mr. Cicilline.
    [The prepared statement of Mr. Smith follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              


    Mr. Cicilline. Thank you, Mr. Chairman, and thank you for 
holding today's hearing. And thank you also to our ranking 
member, Congresswoman Bass, for convening this important 
hearing, and thank you to our witnesses.
    Fostering religious understanding and combating anti-
Semitism is a critical and very important challenge. In the 
United States, the work we do internationally to protect the 
human rights of people of every faith is a reflection of our 
nation's values and founding principles. We are all of course 
familiar with the historical consequences of anti-Semitism 
especially when it is infused with a political dimension. The 
purpose of this hearing is absolutely essential. It is very 
important to discuss the impact anti-Semitism has on the global 
understanding and the rights of all people.
    And so I want to just welcome the witnesses who are here 
today, to thank you for participating in this hearing on this 
very important topic. I look forward to hearing your diverse 
and global perspectives. I think we all recognize that the rise 
of anti-Semitism is deeply troubling, and considering what 
actions we can take to respond to this phenomenon, what public 
policies we can implement, what educational policies we can 
promote to help to eradicate anti-Semitism all over the world 
should be our focus. And I thank you to the extent you are 
going to contribute to that discussion, and I welcome you to 
the hearing today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you, my friend. I would like to yield to 
Mr. Marino, former U.S. Attorney from Pennsylvania, and a 
member of this committee.
    Mr. Marino. I yield back. I have no opening statement.
    Mr. Smith. Mr. Bera?
    Mr. Bera. Mr. Chairman, thank you for holding this hearing. 
As we are going to hear, anti-Semitism and hate crimes continue 
to plague our nation and the world. In 2011, over 1,080 cases 
were reported nationwide. Unfortunately, my community in 
Sacramento knows firsthand the dangers of this form of hatred. 
This weekend I had the privilege of visiting Congregation Beth 
Shalom, a synagogue in Carmichael, California, for Purim 
celebrations. There I witnessed a vibrant and joyful community 
celebrating their faith. However, just 14 years ago this 
community was victimized by anti-Semitic arsonists who burned 
three synagogues. Congregation Beth Shalom as well as B'nai 
Israel and Kenesset Israel Torah Center were victims of these 
senseless attacks.
    Our community is all too aware of the threat that anti-
Semitism poses to freedom in this country and around the world. 
These attacks in 1999 came as a shock. They served as a cruel 
reminder that the desire to erase the Jewish people and their 
culture persists. At B'nai Israel, a community founded in 1849 
and the oldest congregational-owned synagogue west of the 
Mississippi River, more than 5,000 books were destroyed. 
Ancient, irreplaceable judaica were lost in the fire, and a 
community of believers peacefully practicing their faith were 
deeply shaken.
    An intern in my office attends Beth Shalom, the 
congregation that I visited this weekend. She was only 6 years 
old at the time of the attacks. Her parents struggled to 
explain why anyone would do something so awful to the good 
people they knew, friends, family, neighbors. Just days after 
the arson, a unity rally was held at the Sacramento Community 
Center. More than 5,000 people of all faiths came to support 
the synagogues. The congregation received hundreds of cards, 
donations, and a community pulling together. Signs that read 
``United We Stand'' could be seen in windows throughout 
Sacramento. As we know in Sacramento firsthand, battling anti-
Semitism is going to be an ongoing struggle.
    Mr. Chairman, thank you again for convening this important 
hearing, and thank you to the witnesses for telling us how we 
are going to continue this battle. I yield back my time.
    Mr. Smith. Thank you very much. I would like to now yield 
to Mr. Meadows.
    Mr. Meadows. I just want to thank each one of you for being 
here on this critical issue as we address it, and thank you, 
Mr. Chairman, for holding this hearing. As we look at this, one 
of the things that I hope each one of you can address is how so 
many times we publicly say that this is something that we can't 
stand, but yet quietly we tolerate it. And so what we need to 
do is make sure that not only our rhetoric is matched by our 
actions, but what we need to do not only as a nation, but as a 
leader in the world to highlight this particular issue.
    The other part of that is, is there has been much emphasis 
played on the economic role and how that exacerbates this 
problem. And while history shows that there certainly is an 
economic component to it, as we see the nation of Israel we 
have got a 10,000 square mile nation that has no oil, no gold, 
no iron, and yet it is surrounded by 5.2 million square miles 
of oil-rich country and they are seen as the agressor, which is 
not actually the case.
    And so even though there may be an economic component to 
it, what I would love to see from each one of you and would 
welcome hearing is how that we can address this and highlight 
the atrocities that are happening over and over, and what is 
the causal effect of that and how through an international body 
perhaps that we can put influence or pressure to bear to 
highlight this so that it doesn't continue to be tolerated in 
our world. Thank you so much. I yield back, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Meadows. Mr. Weber?
    Mr. Weber. Thank you, Mr. Chairman, for holding the 
meeting, and I echo the same sentiments and remarks. I will be 
committed to eliminating anti-Semitism around the world. The 
United States stood tall once before, and I look forward to 
being part of standing tall once again. Thank you very much.
    Mr. Smith. Thank you, Mr. Weber, very much. It is now a 
privilege to introduce our first panel. But before I do that I 
do want to acknowledge the presence of Annette Lantos, the 
wife, and very distinguished in her own right, but the wife of 
our former chairman, Tom Lantos, who we all deeply miss. And 
our first witness will be Katrina Lantos Swett who is Tom and 
Annette's daughter.
    Dr. Katrina Lantos Swett is the chair of the United States 
Commission on International Religious Freedom, an independent 
U.S. Government commission that monitors the universal rights 
to freedom of religion, and belief, abroad. She established the 
Lantos Foundation for Human Rights and Justice in 2008, and 
serves as its president and chief executive officer, carrying 
on the unique and tremendous legacy of her father, the late 
Congressman Tom Lantos.
    We will then hear from Eric Metaxas who is the author of 
the best-selling books including ``Bonhoeffer'' and ``Amazing 
Grace: William Wilberforce''--who is a personal hero of mine--
``and the Heroic Campaign to End Slavery''; and more than than 
30 other books. A very, very prolific and effective writer. He 
is currently the voice of BreakPoint, a radio commentary. He 
was the keynote speaker at the 2012 National Prayer Breakfast, 
and was awarded the Canterbury Medal in 2011 by the Becket Fund 
for Religious Freedom.
    We will then hear from Zuhdi Jasser who is the founder and 
president of the American Islamic Forum for Democracy, and is 
the author of ``A Battle for the Soul of Islam: An American 
Muslim Patriot's Fight to Save His Faith.'' Dr. Jasser is a 
first-generation American Muslim whose parents fled the 
oppressive Ba'ath Regime in Syria. He earned his medical degree 
on a U.S. Navy scholarship and served 11 years in the U.S. 
Navy. Dr. Jasser currently serves on the U.S. Commission on 
International Religious Freedom.
    We will then hear from John Garvey who is the president of 
the Catholic University of America. Mr. Garvey was the dean of 
Boston College Law School and the president of the Association 
of American Law Schools. He has practiced law and taught at 
Notre Dame, Michigan, and Kentucky. He is the author or co-
author of numerous books including ``Religion and the 
Constitution,'' which won the Alpha Sigma Nu Jesuit book award; 
and he has won the Catholic Press Association award for another 
work that he authored.
    Then we will hear from Elisa Massimino who has been the 
president and chief executive officer of Human Rights First, 
and no stranger to this subcommittee. She helped establish the 
Washington office in 1991, and served as the organization's 
Washington director from 1997 to 2008. She has served as pro 
bono counsel in many human rights cases, testified before this 
committee and others more than a dozen times, and is published 
frequently. The Hill has repeatedly named her as one of the top 
20 public advocates in the country.
    A very distinguished list; I would like to now ask Dr. 
Lantos Swett if she would proceed.

     STATEMENT OF KATRINA LANTOS SWETT, PH.D., CHAIR, U.S. 
         COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM

    Ms. Lantos Swett. Thank you very much. It is a great honor 
for me to be here today. It is a great honor to appear with 
this distinguished panel of witnesses. And of course, Mr. 
Chairman, we all know that you are among the most valiant and 
courageous defenders of human rights in all their forms and for 
all people everywhere that our country has known, and so it is 
a particular pleasure for me to be here testifying before you. 
And lastly, I would be remiss if I didn't acknowledge my father 
there gazing down upon me. Certainly my personal hero and 
someone who as the only survivor of the Holocaust ever to serve 
in this body, his presence is with us here today and I know he 
is incredibly grateful to know that these hearings are taking 
place.
    I would like to ask, Mr. Chairman, that the full text of my 
remarks be entered in the record, because in the interest of 
time I probably won't be able to deliver every word as written.
    Mr. Smith. Without objection, so ordered.
    Ms. Lantos Swett. Thank you so much. In light of today's 
hearing it is fitting to note that just a few days ago, last 
Sunday, Jews around the world celebrated the annual festival of 
Purim. As related in the biblical Book of Esther, Purim is the 
story of how the Jews of the Persian Empire, nearly 25 
centuries ago, faced the danger of imminent extermination at 
the hands of Haman, the King's prime minister. This ancient 
threat represents the first known plot to entirely destroy the 
Jewish people. Through a dramatic turn of events, and may I say 
through the courage and cleverness of beautiful Esther, the 
plot was thwarted and the Jewish people were delivered from 
destruction.
    It is ironic indeed that in today's Persia, which we now 
call Iran, its current leaders follow in Haman's footsteps by 
expressing their own form of vicious anti-Semitism and their 
avowed determination to wipe Israel, the Jewish homeland, off 
the map. Top officials have denied the reality of the Nazi 
Holocaust, the most serious effort in history to obliterate the 
Jewish people. As the daughter of Holocaust survivors I can 
testify as to how surreal it is for a people to have to defend 
themselves in this day and age not only against hateful 
attitudes and behaviors, but also against those who try to 
dissuade others from believing that 6 million people were 
killed for the sole crime of being Jews.
    Unfortunately, anti-Semitism remains a phenomenon that 
knows no national boundaries. I was recently confronted with 
the reality of this during an official USCIRF visit to Egypt. 
One of the most dramatic moments of that visit to Egypt was 
when I sat across at a very close distance from a high official 
in the Morsi government and personally confronted him on some 
of President Morsi's recently unearthed statements in which he 
says that we must nurse our children and grandchildren on 
hatred of the Jews down to the last generation and in which he 
referred to Jews as the descendants of apes and pigs. I said to 
that minister, your President was calling on hatred of me down 
to the last generation. Your President was saying that I and my 
seven children are the descendants of apes and pigs. This is 
not the conduct of a civilized people. These are not the words 
of a civilized man. This is a stain upon the honor of Egypt. A 
stain upon the character of your nation, and it must stop.
    I share that experience because I think in some sense it 
holds the key to the answer that we are all seeking today, how 
do we confront anti-Semitism? It is awkward. It is 
uncomfortable. It is personal. It is direct. It is tense. We 
don't shrug our shoulders, we don't--to borrow a phrase from 
President Bush--sort of indulge in the bigotry, soft bigotry of 
low expectations and say, well, it is the Muslim world. We will 
shrug our shoulders and kind of just move on and get to the 
more serious discussions. We face it. We confront it. I am 
going to return to my written remarks here.
    Anti-Semitism remains a phenomenon that as I say knows no 
national boundaries. Through vigilance and wakefulness we have 
tried to confront it in every corner and in every country and 
in every region of the world. And in Europe the enormity of the 
Holocaust compelled Europe's peoples to begin the critical task 
of self-examination, confronting hateful action stemming from 
poisonous attitudes and beliefs which permeated Europe for 
nearly 17 centuries, helping to demonize the people and 
preparing the way for the unthinkable. This painful realization 
of how homegrown hatred sowed the seeds for genocide remains a 
significant force in Europe today. Yet now, nearly 70 years 
after the Holocaust, the fact remains that across Europe, from 
East to West, anti-Semitism lives and is gaining momentum.
    I know that time is short and I don't want to overstep my 
time, so instead of detailing, as I think some of my fellow 
witnesses will, the incredibly broad scope of examples of anti-
Semitism across Europe, I would like to speak briefly about the 
perpetrators and the enablers of these very disturbing acts. 
The perpetrators of these acts across Europe and elsewhere 
largely are individuals or members of groups who are deeply 
hostile to democracy and pluralism. Some are neo-Nazis who 
express their admiration for Adolph Hitler. Others are racist 
skinhead groups active in many countries, and many are violent 
religious extremists who distort the religion of Islam to suit 
their own intolerant political aims. Compounding this problem 
are four critical factors.
    First, while the number of Europeans participating in anti-
Semitic acts is minuscule, nearly every recent survey on anti-
Semitism in Europe shows that negative attitudes toward Jews 
among Europe's population remains surprisingly widespread. 
Second, these surveys show that to an alarming degree at least 
some of this bias against Jews masquerades, as you said Mr. 
Chairman, as criticism of the State of Israel. While we know 
that no country is beyond reproach for its particular policies, 
when criticism takes the form of language that seeks to 
delegitimize, demonize and apply a double standard to that 
nation, then we have to insist on calling it what it is, anti-
Semitism. We must unmask it.
    I am reminded of how persistent this problem has been. Back 
in 1968, the non-Jewish writer Eric Hoffer put it well when he 
wrote, ``Other nations when they are victorious dictate peace 
terms, but when Israel is victorious it must sue for peace.'' 
He added, ``Everyone expects the Jews to be the only Christians 
in this world.'' Very penetrating comment, I think.
    A third factor, European governments initially were slow to 
respond to the threat posed to Jews, and even now according to 
a number of Jewish community leaders and public officials, 
often at the local level leadership remains reluctant to 
identify publicly the ideological or religious identity or 
motivation of some of the perpetrators of anti-Semitic acts. 
And this lackadaisical attitude has contributed to a climate of 
complacency vis-a-vis this issue.
    Finally, as USCIRF has documented and articulated, a number 
of European governments along with certain political parties 
are complicating matters by supporting initiatives that single 
out certain Jewish religious practices for restriction. In at 
least four countries, Iceland, Norway, Sweden and Switzerland, 
kosher slaughter is flatly banned. Authorities and political 
forces in Norway and Germany have also tried to ban infant male 
circumcision. To be sure, the driving force behind such 
restrictions, which also affect Muslims, is not primarily anti-
Semitism per se. It is more directly related to a tendency in 
some Western European countries to replace monolithic state 
religions with monolithic secular ideologies.
    And we see that this agressive secularism in some instances 
targets traditional Christianity and Islam as well. In both 
instances past and present, Judaism and other minority belief 
systems are left on the outside. Nonetheless, this drive to ban 
kosher slaughter and circumcision evokes tragic images of much 
darker days for Jews in Europe. At the very least, such efforts 
reveal a chilling indifference to the Jewish historical 
experience in Europe. The end result is that the atmosphere 
throughout Europe today is one in which Jewish communities feel 
insecure and threatened, and the general population seems 
dangerously complacent and even comfortable with widespread, 
open manifestations of anti-Semitism.
    I know we are going to have the opportunity to discuss 
solutions and answers in our later discussion, so let me close, 
if I may, with one more paraphrase from Eric Hoffer, this 
former longshoreman and social philosopher. He wrote, and I am 
paraphrasing him here a bit, ``I have a premonition that will 
not leave me. As it goes with the Jews so will it go with all 
of us. Should the Jews perish, the Holocaust will be upon us 
all.'' Thank you very much.
    [The prepared statement of Ms. Lantos Swett follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Dr. Lantos Swett, thank you for that very 
powerful statement.
    But now I will ask Mr. Metaxas if he will proceed.

     STATEMENT OF MR. ERIC METAXAS, AUTHOR AND COMMENTATOR

    Mr. Metaxas. First of all, let me thank you all for the 
invitation to be here this morning. I grew up in America but my 
parents are immigrants from war-torn Europe, from Greece and 
Germany, respectively. They inculcated in me a great pride in 
their adopted country, so to testify here is for me a high 
privilege indeed.
    This morning I testify as an American and as a Christian. 
What it is to be an American and what it is to be Christian can 
be tremendously misunderstood, so let me be clear here as I set 
out in stating that I believe that in the true sense both of 
these identities, American and Christian, are identities that 
are not tribalistic, but that bring with them a sense of 
obligation for others and a perspective that is by definition 
focused on others. For example, to be an American is not to be 
part of any ethnic group but to be part of something that 
transcends ethnicity. To be an American is to buy in to an idea 
that pluralism is good and that a multiplicity of peoples and 
ideologies and races and religions can coexist. This is at the 
heart of the American experiment. And to be an American is to 
buy in to the idea that not only can they coexist, but that in 
coexisting civilly they will add up to a sum far greater than 
their parts. To be a Christian is likewise to know that one is 
not part of an ethnic group but of a group that transcends and 
potentially includes all ethnic groups. So true Americans and 
true Christians can never be tribalists or racists. If we ever 
put one group above another group we are denying ourselves and 
the core beliefs that make us Americans or Christians.
    I have written a biography of the great German pastor, 
Dietrich Bonhoeffer, who spoke up for the Jews when very few 
Germans were doing so, and we have to ask, why did he do that? 
Why did he risk his life, for example, to get seven Jews out of 
Germany and into neutral Switzerland so that their lives might 
be saved? Bonhoeffer stood up for the Jews for one reason, 
because he was a Christian, not a mere churchgoer, not a mere 
Gentile, but a Christian. Bonhoeffer famously once said that 
only he who speaks out for the Jews can sing Gregorian chants. 
In other words, anyone who claims to be Christian and does not 
do whatever he can to help the persecuted Jews has no right to 
claim to be a Christian. That person is only a hypocrite and a 
betrayer of the Christian faith.
    But why? Is this merely an assertion by me and by 
Bonhoeffer? Well, no, because at the heart of the Christian 
faith is this idea that God blesses us so that we might bless 
others. He gives us whatever he gives us for others. Indeed, it 
is in Genesis that God states this in the context of making the 
first Jew, Abraham. He says he will bless Abrahan so that 
Abraham can bless others. He will bless the Jews and he chooses 
the Jews. The Christian believes that God chose the Jews as his 
own people so that out of them he might bring himself to the 
whole world beyond the Jews. That he might out of the Jewish 
people raise up his Messiah. And so the Jews are blessed to be 
a blessing, chosen out of all groups in the world to bless the 
whole world.
    The Bible also says every human being is made in God's 
image and God loves us equally, so to serve God we must serve 
others. In fact, Bonhoeffer says that Jesus Christ is the Man 
for others. The self-giving ``agape'' love of Jesus is the love 
that gives at the expense of one's self, knowing that whatever 
we do to bless others God will replenish. So to be a Christian 
is to love and serve others, specifically others different from 
us.
    When Hitler began persecuting Jews in earnest in 1933, 
Bonhoeffer wrote an essay titled, ``The Church and the Jewish 
Question,'' declaring that it was the duty of German Christians 
to stand up for the Jews, indeed for any group being 
persecuted. But this is an American belief too, although I 
daresay you can guess where we got it from. America is not a 
democracy, but a republic. Majorities do not decide what is 
true. In America, minorities are protected when necessary 
because we believe what the Bible teaches, that some truths are 
transcendent and not subject to plebiscite, and one of those 
ideas is the dignity of every human being despite his beliefs 
or racial or ethnic makeup. We are inherently sacred because we 
are made in God's image. So God commands every Christian to 
stand up for those being treated unjustly or persecuted in any 
way, and in America we have enshrined that into our very laws.
    So today as a Christian and as an American I declare that 
anyone who sees things from a tribalist or racist perspective, 
and anti-Semitism is one especially prominent expression of 
this, then that person declares himself not to understand the 
Christian faith and not to be a Christian. The true Christian 
knows that his enemy is not the Jew, but his enemy is the enemy 
of the Jew.
    One final point. Throughout history Gentiles, which is to 
say those who are not Jewish, have often been confused with 
Christians. Often they have themselves encouraged and 
participated in this confusion. But a mere Gentile is no 
Christian. All dedicated Nazis were Gentiles. None were 
Christians. To be a Christian is to know that you have, 
according to the New Testament, been grafted in to the Jewish 
faith. Your Messiah and your God, Jesus, is a Jew and all of 
his disciples are Jews. On Kristallnacht in 1938, Bonhoeffer 
for the first time made the very dramatic leap into seeing an 
attack on Jews as an attack on God Himself. So Christians who 
think of themselves as some tribal group in opposition to Jews 
are profoundly deluded.
    To demonize any group based on what they believe or their 
ethnic makeup is to admit that one's beliefs are not in the God 
of the Bible but in a counterfeit god who is, in fact, the 
ancient enemy of that God. Not to stand up to attacks against 
any group, especially Jews, is to deny the transcendent truths 
that we are all created in God's image with certain inalienable 
rights. Bonhoeffer said that ``Silence in the face of evil is 
itself evil. God will not hold us guiltless. Not to speak is to 
speak. Not to act is to act.'' So to do nothing when anti-
Semitism raises its head is to hasten the death of civil 
society for everyone.
    Everyone who has the privilege to call himself a Christian 
or an American must stand against these things, and not just 
stand against them but take action against them. We must recall 
the words of Bonhoeffer's friend, Martin Niemoller, who wrote 
his famous poem.

        ``First they came for the Communists, and I didn't 
        speak out because I was not a Communist. Then they came 
        for the socialists, and I didn't speak out because I 
        wasn't a socialist. Then they came for the trade 
        unionists, and I didn't speak out because I wasn't a 
        trade unionist. And then they came for me, and there 
        was no one left to speak for me.''

Niemoller himself did not speak up until it was too late, and 
his poem cautions us to speak out when any group is being 
persecuted. This is the right thing and the American thing and 
the Christian thing to do. God commands it.
    Thank you.
    [The prepared statement of Mr. Metaxas follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Mr. Smith. Thank you for that very powerful statement as 
well, and for providing us a refresher course on the model of 
Bonhoeffer, which we all need to emulate. Thank you so very 
much.
    Dr. Jasser?

 STATEMENT OF ZUHDI JASSER, M.D., PRESIDENT, AMERICAN ISLAMIC 
                      FORUM FOR DEMOCRACY

    Dr. Jasser. Thank you, Chairman Smith and Ranking Member 
Bass, distinguished members of the committee for seeking my 
testimony. I must first thank the committee for taking the time 
to focus on this very important issue of anti-Semitism and its 
important role as a canary in the coal mine, if you will, for 
the threat against all people, all faiths, and liberty. Our 
organization, the American Islamic Forum for Democracy, is 
dedicated as a Muslim organization in the mission to the 
advancement of liberty through the separation of mosque and 
state. My comments are abridged and I submit the full comments 
to the record.
    Anti-Semitism is not just another symptom from a radical 
fringe of Islamist groups. It runs much deeper. This body has 
been fearless in exposing anti-Semitism in Europe and the West. 
It is time to do the same with the role in which Islamism or 
political Islam plays upon anti-Semitism around the world, as 
it also impacts the West. Islamists have utilized the viral 
spread of anti-Semitic imagery and demonization of Jews as a 
tool among Muslim majority communities and nations against a 
common enemy they fabricate. Beneath Islamist hatred of Jews 
lies a more global supremacism that treats all minorities, 
whether Shia, Ahmadiyya, Ismailis, or dissenting Sunnis, like 
myself, from within the faith and other minorities outside, the 
same, simply as tools to be inhumanly exploited.
    Anti-Semitism runs rampant on the fertile soil of Islamism. 
What is our challenge before us here today? We can help the 
non-Islamist reformers change that soil or we can sit back and 
watch the Islamists--in Egypt, the Brotherhood; in Tunisia, al-
Nahda; in Saudi Arabia, the Wahhabis; in Iran, the Khomeinists; 
or Pakistan, the Deobandis--fertilize and till the hate-filled 
soil into a greater threat. Make no mistake. The departure of 
Arab fascist dictators and Arab Awakening was a necessary step 
forward in a long journey toward democracy, and there is still 
many more of them to go. But societies with rampant anti-
Semitism, conspiracy theories, and hate of Western democracies 
cannot succeed and will always fail.
    Already the Muslim Brotherhood now in power is buckling 
down on free speech and blasphemy worse than they were under 
Mubarak. But please understand though, while Islamism is 
popular, upwards of 30-40 percent at times, it is not a 
majority movement. But what I am sure you know is that the hate 
of anti-Semitism is sadly more popular and is a majority 
sentiment. Islamists invoke common cause with secularism, the 
hatred of Jews and the West, and are able to dodge national 
introspection and build shallow coalitions on that hate.
    Let us look at the numbers. A Pew poll in 2006 stated that 
the anti-Jewish sentiment is endemic in the Muslim world. In 
Lebanon, all Muslims and 99 percent of Christians say they have 
an unfavorable view of Jews. Ninety-nine percent of Jordanians, 
large majorities of Moroccans, Indonesians, Pakistanis, and 
six-in-ten Turks also view Jews unfavorably. Egyptian TV has 
long aired the hateful forgery of their protocols, and Al 
Jazeera, the most watched Muslim media in the world, has 
countless sermons and programs vilifying Jews and Israel. And 
Al Jazeera media group just purchased for $0.5 billion, access 
into American living rooms.
    With vast global connections in Arabic social and 
traditional media, Muslim populations in Europe and the United 
States are impacted by Islamist propaganda. The Pew showed in 
2006 that Muslims in Europe hold a far more unfavorable 
opinions of Jews than the general population. In Britain, 47 
percent of Muslims held unfavorable views compared to 7 percent 
of the general public. In France, 28 percent of Muslim versus 
13 percent of the general public. In Germany, 44 percent of 
Muslims versus 22 percent of the general public. We have been 
absent in the defense of liberty in these populations that 
haunts us over there and right here in the West.
    As hate leads population shifts will follow. From nearly 1 
million Jews in the Arab region around 1950, there are 20,000 
left. Over 2 million Christians have recently left the Middle 
East. Anti-Semitism is obviously the gateway drug that takes 
societies away from diverse liberal democracies and moves them 
closer to homogeneous, oppressive autocracies which abuse 
minorities. If we sit here and tolerate any less from Muslim 
communities than we do for ourselves in respect to anti-
Semitism and the principles embodied in the universal 
declaration of human rights, we are participating not only in a 
form of a denial but, I believe, in subtle bigotry.
    The reality is that Muslim imams, scholars, and activists 
with the courage to publicly take on anti-Semitism of the 
Islamists are far too few. They have neither the platforms, the 
attention, nor the backing which petro-funded Islamist think 
tanks and linked movements do around the world. Last January an 
Arabic al-Qaeda jihadi forum attacked me as an enemy of Islam, 
and actually in its attack said that I am part of the devil 
that is known for its Zionism. This is all too common and it is 
how they marginalize their antagonists and avoid substantive 
debate, use anti-Semitism to attack other Muslims.
    Sheikh Qaradawi, who is known throughout the world as one 
of the preeminent Sunni leaders, globally in his program on Al 
Jazeera to over 60 million followers, said the last punishment 
was carried out by Hitler. This was the divine punishment for 
them, in reference to the Jews. Allah willing, the next time 
will be at the hand of the believers. Qaradawi returned to 
Egypt as Khomeini returned to Iran after the Egyptian 
revolution.
    Lastly, the Saudis spent tens of billions of dollars 
throughout the world to pump Wahhabism or petro-Islam, a 
particularly virulent and militant version of supremacist 
Islamism. An endless list of terror groups use their ideology 
from al-Qaeda, Hammas, Lashkar-e-Taiba to many in their 
madrassahs and mosques that are influenced by Wahhabi 
materials. A ninth grade Saudi textbook described Jews as ``the 
apes of people of the Sabbath, the Jews; and the swine are 
infidels of the communion of Jesus and Christians.'' And 
remember, even if they do remove parts of the textbooks with 
this, you cannot reform by deletion or white-out, it needs deep 
self critique and wholesale abandonment of Islamism for 
liberty.
    I leave you last with solutions to consider. Number one, we 
must engage and take sides in the battle of ideas against 
Islamism by reviving our public diplomacy and support of 
universal human rights whether it is popular in their societies 
or not. We need to systemically expose, name and shame the 
anti-Semitism behaviors and ideas promulgated by Islamist 
movements including all forms of hatred against Jews, 
conspiracies, and anti-Americanism. Anti-Semitic ideas are not 
isolated incidents to be simply condemned and dismissed. We 
should expose their root cause, foremost of which amongst 
Muslims is Islamism.
    And we must work to provide platforms for courageous reform 
based civil society organizations which work against anti-
Semitism, and this is what I talk about in my book, ``A Battle 
for the Soul of Islam.'' And we must conversely disengage 
proudly from Islamist groups. We must end the climate of 
political correctness and subtle bigotry which gives Muslims a 
pass on accountability for hate-filled ideas.
    We must not be seen as advocating liberty only at home and 
turning a blind eye to anti-Semitism from our so-called allies. 
And we must confront Islamist groups and leaders in Europe with 
what Prime Minister David Cameron called ``muscular 
liberalism.'' And as my colleagues have already stated, hyper-
secularists in Europe attack the faithful of all faiths. 
Islamists thrive under the deception that Muslims have no other 
option than to lean toward Islamism.
    Thank you.
    [The prepared statement of Dr. Jasser follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Dr. Jasser, thank you very much for that very 
important contribution, and for reminding this committee, and I 
think the country, and I hope the press and everyone else. In 
the way you not only presented your testimony, I do hope 
everybody will read your entire testimony and see that Muslims 
are speaking out. You are one of the most bravest doing so, but 
speaking out in a way that really defends all people--Jews, 
Christians, Muslims themselves--but to do so in a way that 
really calls us to action, and the executive as well as the 
congressional branch. Thank you so much, Dr. Jasser.
    Mr. Garvey?

     STATEMENT OF MR. JOHN GARVEY, PRESIDENT, THE CATHOLIC 
                     UNIVERSITY OF AMERICA

    Mr. Garvey. Thank you, Mr. Chairman. Anti-Semitism is so 
obviously wrong that I feel almost sheepish making arguments 
against it, but here we are. So I want to elaborate on three 
points which I hope you will not find unnecessarily self-
evident. First, anti-Semitism is intrinsically wrong. It 
violates human dignity because it denies the right to religious 
freedom. The Catholic Church calls this our first, most 
cherished liberty. James Madison argued that the right is 
unalienable because what is here a right toward men is a duty 
toward our Creator. The Catholic Church actively seeks its 
protection regardless of the faith in question. This is why the 
American bishops lent their strong support to the International 
Religious Freedom Act in 1998.
    Anti-Semitism also violates human dignity by denying the 
right of equality. Here is what the Second Vatican Council 
said, ``The Church reproves, as foreign to the mind of Christ, 
any discrimination against men or harassment of them because of 
their race, color, condition of life, or religion.'' Allow me 
to add a further refinement. The Catholic Church is especially 
concerned about anti-Semitism because we are one family in the 
Abrahamic tradition. Catholics call fellow Christians their 
brothers and sisters in faith. Pope Benedict describes the Jews 
as ``our fathers in faith.'' We share with them the Hebrew 
scriptures, and our traditions of prayer are rooted in that 
book. Together we worship the God of Abraham.
    Anti-Semitism is an attack on our family. This familial 
outlook has led our last two popes to make powerful gestures of 
solidarity with the Jewish people. Pope John Paul II used a 
powerful image to condemn the legacy of anti-Semitism when he 
said during his historic homily at Brzezinka that the 
concentration camp is the ``Golgotha of the modern world.''
    Second, anti-Semitism is not just wrong for Jews; it puts 
other faiths at risk. This is so, first of all, because the 
arguments that support anti-Semitism may be deployed with equal 
force against other faiths. The descriptions used to disparage 
Jewish communities 100 years ago--that they were clannish, 
insular, didn't fit in, brought their outsider status on 
themselves--may be used against Muslims in France today. Their 
offense, it will be said, is not that they are Muslims. It is 
that they speak a foreign tongue, dress in inappropriate ways, 
dispute the principle of laicite, favor the prospering of 
foreign states over France.
    The patterns of violence that have historically 
characterized anti-Semitism are unfortunately familiar to 
Christians today. Anti-Christian sentiment in some parts of the 
world, like anti-Semitism, is rooted in a dislike of religious 
belief. It manifests itself in similar ways. Pope Benedict XVI 
described it in an address to the diplomatic corps last year:

        ``In many countries, Christians are deprived of 
        fundamental rights; in other countries they endure 
        violent attacks against their churches and their homes. 
        At times they are forced to leave the countries they 
        have helped to build because of persistent tensions and 
        policies which frequently relegate them to being 
        second-class spectators of national life.''

    Here is a second cause of harm to other faiths. Anti-
Semitism can make the world a more hostile place for other 
religions through a strategy of divide and conquer. Anti-
Semitism does not attack belief itself. It focuses its 
attention on a particular group of believers. When they are 
intimidated into silence, the strength of the cohort of 
believers is reduced to that degree. Here is how James Madison 
saw the danger. ``It is proper,'' he said, ``to take alarm at 
the first experiment on our liberties. Who does not see that 
the same authority which can establish Christianity, in 
exclusion of all other religions, may establish with the same 
ease any particular sect of Christians, in exclusion of all 
other sects?''
    Third, like other cancers, anti-Semitism spreads its poison 
to all parts of the body politic. A society that tolerates 
anti-Semitism cannot maintain a healthy democracy. First, as a 
matter of historical fact, the western commitment to political 
liberty grew out of our acceptance of religious toleration. 
John Neville Figgis, the student of Lord Acton, famously said 
that ``political liberty is the residuary legatee of 
ecclesiastical animosities.'' Our success in living with 
religious differences gave us a lesson in tolerating political 
differences, and a hope that we could surmount them. If we are 
passive in the face of anti-Semitism we risk running our 
constitutional evolution in reverse.
    Second, as the late Ronald Dworkin was fond of pointing 
out, democracy rests on a commitment to equality. Anti-
Semitism, like racism, denies this. We saw this in our own 
treatment of African Americans. The original Constitution 
treated slaves as less than fully human. Dred Scott held that 
slaves were not citizens. A society that tolerates anti-
Semitism behaves in a similar way and is not worthy to be 
recognized as a democracy.
    Third, such a society can make no claim to be a liberal 
democracy. The defining characteristic of a liberal democracy 
is its commitment to liberty. Our own Supreme Court has held 
that the fundamental concept of liberty comprises an absolute 
freedom to adhere to such religious organization or a form of 
worship as the individual may choose. To persecute a people for 
their religious belief and form of worship is to deny the most 
fundamental commitment of a liberal democracy.
    Thank you very much for giving me this opportunity to offer 
a few thoughts on an issue of such concern to us.
    [The prepared statement of Mr. Garvey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony. You 
profoundly state how anti-Semitism is intrinsically wrong, and 
as a Catholic your point that anti-Semitism is an attack on our 
family as well certainly rings true. And I think that and 
believe that goes for all faiths. But thank you for your 
extraordinary testimony.
    Ms. Massimino?

STATEMENT OF MS. ELISA MASSIMINO, PRESIDENT AND CHIEF EXECUTIVE 
                  OFFICER, HUMAN RIGHTS FIRST

    Ms. Massimino. Thank you so much, Mr. Chairman. I 
appreciate the opportunity to be here today to share Human 
Rights First's findings and recommendations on this important 
issue and to discuss how to further our common goal of 
combating intolerance and advancing human rights. We are deeply 
grateful to you, Mr. Chairman, for your leadership and to the 
subcommittee for its important role in keeping human rights 
front and center in the Congress.
    Anti-Semitism is not a Jewish issue and it is not a 
religious issue. It is a human rights issue and we all have to 
confront it. The failure of governments to punish those who 
commit violence targeting Jews and Jewish communities and to 
condemn and counteract virulent anti-Semitic hate speech 
creates an environment that endangers not only Jews, but the 
rights and security of adherents of other religious faiths and 
members of other minority groups. A healthy civil society 
cannot flourish in the face of unchecked hatred. Indeed, we see 
time and again that hate does not exist in neat compartments, 
but it metastasizes, creating an enabling environment for 
violence that affects immigrants, members of religious and 
sexual minorities, Roma, and many, many others.
    For more than a decade, Human Rights First has been working 
to monitor and combat anti-Semitic violence and to press for 
stronger government action. Although anti-Semitism is a global 
problem, my testimony today will focus on anti-Semitic violence 
in Europe and the former Soviet Union where the translation of 
sentiment against Israel or the policy of its governments into 
anti-Jewish antipathy has generated new and unique anti-Semitic 
violence that has fluctuated in relation to events in the 
Middle East. At the same time, age-old manifestations of anti-
Semitism persist and are often deeply intertwined with the 
prejudices that fuel hatred against other minorities.
    Anti-Semitism remains at the core of organized racial 
supremacist groups in Western Europe and of broad nationalist 
movements in Eastern and Central Europe that target immigrants, 
Roma, LGBT persons, and religious minorities among others. It 
is thus important that individuals and leaders from faith and 
other communities come together to condemn anti-Semitism and 
other forms of intolerance. And this hearing is an important 
opportunity for us to reflect on the interrelationship of these 
threats and the importance of solidarity in confronting them.
    Anti-Semitic violence as well as other forms of hate crimes 
should not be seen simply as the problems of individual victims 
or their communities. They must be seen and responded to for 
what they are, serious violations of human rights. These 
threats of fundamental rights must be challenged not just by 
the victims or communities of targeted individuals, but by all 
those who seek to advance universal rights and freedoms.
    I would like to make four key points today. First, anti-
Semitism is a unique and potent form of racism and religious 
intolerance, and the extent of the violence motivated by anti-
Jewish animus throughout the OCSE region remains at 
disturbingly high levels. Second, with few notable exceptions, 
government responses to this rising tide of violence have been 
wholly inadequate.
    Third, the failure to confront anti-Semitic hatred corrodes 
the rights and security of all people. Along with anti-Semitic 
violence, the targeting of individuals because of their race, 
religion, national origin, sexual orientation, or other factors 
has been on the rise in recent years in many countries across 
the globe. Strategies for combating anti-Semitic violence 
through a human rights framework are effective and they are 
necessary for stemming the tide of hate-fueled violence against 
others as well. And finally, U.S. leadership is essential in 
confronting anti-Semitism. My written testimony concluded with 
recommendations for strengthening U.S. leadership in this area.
    The level of anti-Semitic violence in Europe and North 
America today is disturbingly high. Synagogues, Jewish homes 
and Jewish-owned businesses have been targeted in arson attacks 
and subjected to widespread vandalism, and students and 
teachers in Jewish schools and ordinary people have been 
harassed, beaten, stabbed, or shot simply because they were 
Jewish. Anti-Semitism is devastating not only to individual 
victims, but it terrorizes entire communities making 
participation in public life fully and free from fear, 
impossible.
    In one of the most horrifying such incidents last March, a 
23-year-old man of Algerian descent carried out a series of 
terrorist attacks targeting Jewish civilians and French 
soldiers. In total, seven people were killed including a rabbi 
and his two young children. Violent crime is anti-Semitism's 
sharp edge but it often occurs in the context of virulent hate 
speech. In some countries, political and religious leaders are 
the ones spewing this hate, attacking Jews through stereotypes 
and scapegoating. In addition, Jews as people are often 
vilified in the context of attacks on Israel. While criticism 
of Israeli Government policies or the policies of any 
government is legitimate discourse, it crosses the line when it 
disparages or demonizes Jews as a people. When hate speech 
involves direct and immediate threats of violence, governments 
must hold perpetrators criminally accountable.
    But it is important that we approach these challenges in a 
thoughtful way. Confronting hate speech must not impinge on 
free expression. There are ample cases as you know, Mr. 
Chairman, particularly in countries like Russia where the rule 
of law is weak, in which hate speech statutes are misused to 
prosecute dissenting voices and civil society activists, even 
those who are speaking out against hatred and working to 
advance tolerance. Instead, hate speech must be countered by 
clear public statements from a cross section of political and 
civil society leaders to condemn prejudice and hatred and to 
affirm the dignity and rights of all.
    Consistent condemnation of hate speech is still sorely 
lacking across Europe and in many other parts of the world. It 
is vital that political leaders speak out promptly and 
unequivocally to condemn hate speech. Similarly, it is crucial 
that the voices condemning hate speech are raised not only from 
those in targeted communities. Creating a multi-faceted chorus 
of counter-speech is a key to marginalizing the voices of anti-
Semitism and diminishing the impact on the targeted community. 
The United States has a long history of this approach in lieu 
of hate speech laws to address hateful views and political 
discourse. U.S. Embassy officials should speak more frequently 
in this way and urge influential political leaders in the 
countries in question to do the same. When political leaders 
from across party lines condemn anti-Semitism and other forms 
of intolerance it sends an important message to the victim 
communities and to others who would speak so.
    I want to summarize my recommendations quickly. The full 
text of them are in my written testimony. First, in order to 
strengthen U.S. leadership in this area, the U.S. should 
elevate the importance of religious freedom in its U.S. foreign 
policy by developing a national security strategy that promotes 
international religious freedom, combats anti-Semitic and 
related violence, and confronts hate speech while protecting 
free expression. Second, the U.S. should establish an 
interagency mechanism to deploy strategically the resources and 
programs from across the U.S. Government to combat hate crime 
globally.
    Third, making combating anti-Semitism an important 
component of bilateral engagement through an interagency 
effort. That means not just the State Department, but every 
agency of the U.S. Government needs to raise this in its 
bilateral relations with other countries. Fourth, maintaining 
the international leadership of the United States in 
multilateral forums like the OSCE is critically important, and 
thanks to your leadership, Mr. Chairman, we are doing just 
that.
    In conclusion, the failure to confront anti-Semitic hatred 
corrodes the right and security of all people, and that is why 
this hearing, framed as you have framed it, is so important. 
Thank you again, Mr. Chairman, for your leadership and your 
persistence in seeking to eradicate anti-Semitism.
    [The prepared statement of Ms. Massimino follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you so much, Ms. Massimino.
    Let me just begin the questioning and then yield to my 
distinguished colleagues.
    Dr. Jasser, you talked about this tendency to give Muslims 
a pass. There are number of Muslim leaders, as you and I know 
so well, Dr. Ceric, the former Grand Mufti of Bosnia who has 
spoken out repeatedly as have others. But I find, and you may 
find this as well, they get almost no traction in the popular 
media and absolutely no coverage in the Middle East. You 
pointed out the role that--how did you put it--anti-Semitism is 
long a tool utilized by Islamists in order to invoke common 
sympathy from secular nationalists who also developed a hatred 
of Jews in order to avoid national introspection? To what 
extent is that understood in the Muslim world? And if you could 
speak to the role, and others might want to speak to it as 
well, that hate TV plays.
    We had Natan Sharansky testify at one of my hearings years 
ago, and he brought a clip of a soap opera, so-called, that ran 
throughout the Middle East that showed a blood libel, a little 
boy, Christopher, having his throat slit, to be put into the 
matzah, an absolute libel against Jews, and he said, people 
believe this. And I am wondering, how can such a lie be 
embraced by so many people? Where is the corresponding 
pushback? But if you could speak to that.
    Dr. Jasser. Thank you. Thank you, Chairman Smith. I can't 
tell you how important all these questions are. I will start 
with the last one which is hate TV and the media. It is no 
mistake that these ideas are getting traction. It is because of 
the billions of dollars put behind it. Al Jazeera has a huge 
following. Egyptian TV, Iranian Press TV, all of these 
propaganda arms are bolstered with billions of dollars and 
simply spread a lot of these ideas. And eventually even though 
the people may distrust and hate their governments and 
dictatorships, it is going to gain traction in their mindset 
because that was all they see. And that is why the Arab 
Awakening has been a good thing in order to begin to have 
diversity in the media and in the mindsets.
    And the other thing is that we have been missing in action 
as far as promoting ideas and engaging in their media. When we 
put money into Iraq and the media there that we had, Hora TV, 
it doesn't get any ratings. They are not going to watch 
American TV. What we need to do is give platforms to Muslim 
organizations, Muslim reformers as you mentioned from Bosnia, 
and we have a coalition of reformers called the American 
Islamic Leadership Coalition that includes Canadian and 
American reformers that right now is almost 30 different 
members of organizations that have been working to expose anti-
Semitism. It includes people like Tarek Fatah that has recently 
written a book on Islamist anti-Semitism. So I think it is 
important.
    These platforms do not come easily. They have had a huge 
head start because of the funding, and that funding has had a 
core ideology. The secularists of these dictatorships have in 
many ways co-opted this anti-Semitism as a bridge to build 
these coalitions. The people really have been taken by it 
because there is no infrastructure of education, economic well-
being, free markets, in order to counter this. And until the 
secularists who are a majority, I believe, find some unifying 
idea, they are going to continue to be fractionated, and the 
Islamists who are only a plurality are going to continue to win 
elections as they have in Egypt and Tunisia until the 
secularists can come together in a unifying idea such as 
liberty. In the meantime, they have only been unified by 
generations of hate.
    Mubarak, who was supposedly our ally, showed the protocols. 
Assad, in Syria, and his father instilled hate. They instill 
hate in their population even though they are secular against 
faith communities because it works to monopolize the masses and 
control their mindset via anti-Semitism as the tool to do that. 
And I can't tell you enough how much it is important for us to 
develop public-private partnerships of reform based 
organizations, and I think anti-Semitism work against it will 
be a tool to begin to get into taking sides within the house of 
Islam. As long as we don't take sides the Islamists are going 
to win because they are the strong horse.
    Mr. Smith. Let me ask you, Dr. Lantos Swett, what you in 
your testimony quoted Egyptian President Morsi as urging the 
teaching of hatred of Jews to the country's children. Why is it 
that so many governments, and that would include our own, 
mistakingly look at the Muslim Brotherhood as somehow being 
moderate when it has such a profoundly anti-Semitic foundation 
to it?
    Ms. Lantos Swett. Well, I think this relates to an ongoing 
challenge that those of us who advocate passionately on behalf 
of human rights face, and that is the ever-present spectre of 
realpolitik. I think that we have historically viewed the 
Muslim Brotherhood as a very dangerous organization with values 
and principles and platforms utterly inimical to our American 
values and democracy. But as my colleague Zuhdi Jasser just 
said, because the Muslim Brotherhood specifically in Egypt was 
the strong horse after the fall of Mubarak, we found ourselves 
walking down that road of finding reasons to excuse and explain 
away very, very disturbing elements of their platform.
    And I think that is the situation that we find ourselves 
in. I think it is also sadly a reality that Morsi is probably 
now relatively speaking moderate as against some of the really 
extreme Salafis who are part of his coalition and are playing a 
very, very significant role in Egypt today. So I think we are 
drawn down that road, and history shows again and again and 
again that human rights, when they are marginalized, when they 
are put in a neat, tidy, little box in the corner, is something 
that we simply address rhetorically every now and then and then 
conveniently kind of stash them in that diplomatic corner 
labeled irrelevant and unimportant. It comes back to bite us in 
a very hard way when it comes to the rubber meets the road 
reality of American politics.
    My colleague, Elisa Massimino, down at the end of the 
table, spoke about the need for the United States to develop a 
national security policy based around the priority and 
importance of religious freedom. Anybody with eyes to see can 
understand that many of the gravest threats facing our nation 
today from a national security and a terrorism, anti-terrorism 
perspective are coming from societies where religious freedom 
is constrained, where you don't have robust protections that 
lead to tolerance, democracy, pluralism, all the virtues that 
we are here advancing. So it is a very dangerous and short-
sighted game to ignore the long term strength that comes to a 
society when we base our policies on standing firmly and 
strongly for our most profound values. Because those profound 
values of pluralism, tolerance, democracy, equality, and 
freedom have built the strong nation that we enjoy today. And 
it is by pursuing and strengthening those policies abroad that 
we can build strong allies and strong partners.
    Mr. Smith. The chair's time is expired. Mr. Cicilline?
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to the 
witnesses for a really compelling and powerful testimony. I am 
certain that if everyone in the world had the opportunity to 
just hear the testimony of these five witnesses it would mark 
significant progress in our efforts to eradicate anti-Semitism. 
So thank you. And particularly thank you because I think the 
particular power of non-Jewish voices in this work is 
significant, and you all represent very important organizations 
and institutions and religious traditions that I think need to 
play a very important leadership role in helping to eradicate 
anti-Semitism all over the world.
    And I am struggling to think of what we can do as a 
Congress. It seems to me as President Garvey said, this seems 
so obvious that it is difficult to imagine we need to have a 
hearing on it. But I think it is really actually a very 
valuable exercise and I thank the chairman for convening this, 
because I think the more we raise attention to the reality of 
anti-Semitism, sort of acknowledging that this is a worldwide 
and serious problem, I think, is the first and most important 
step. And then bringing attention to it and having universal 
condemnation of it.
    But I want to just focus for my few minutes on the 
education component, because it seems to me the condemnation 
and the continuing to be sure that people understand the 
reality of anti-Semitism by collecting data and tracking it and 
all that part is certainly something that everyone should 
accept as important. But what I want to try to understand is 
what we might be able to do to help deal with ways to educate 
the next generation of people in our world about the dangers of 
anti-Semitism and how it is not simply a Jewish problem but a 
problem for humanity and a problem for human dignity and 
religious freedom all over the world.
    We have in my district something called the Holocaust 
Education and Resource Center of Rhode Island whose mission it 
is to reduce prejudice and the injustice of bigotry against all 
minorities by teaching the current generation about the 
Holocaust and using the Holocaust as a way to really teach 
important values of human dignity and religious freedom. And I 
just would like each of the witnesses to sort of comment on 
what can we do as Members of Congress that will most 
effectively respond to this very serious rise to anti-Semitism 
all over the world?
    I mean as Dr. Lantos Swett mentioned--and it is a great 
honor to welcome you to the committee--as a new Member of 
Congress, your father was a huge hero to me, and a great 
inspiration to so many people--but as you mentioned in your 
testimony, this effort to eradicate the Jews began 25 centuries 
ago and unfortunately, of course, was evidenced by very 
horrific actionable events throughout history that 
operationalized that effort to eradicate Jews from the murder 
of 6 million Jews to individual instances of anti-Semitism.
    So I would just like to ask each of the witnesses to 
suggest to us something we can do that will help in this really 
important effort, and again, thank you for your testimonies. 
Maybe start with Dr. Lantos Swett.
    Ms. Lantos Swett. Well, it is a wonderful question and it 
is one that I don't have a simple answer to. But I look with 
some optimism at where we in this country and to some extent 
globally have come as a society and as a world on many long and 
persistent evils that beset us.
    I went with my family this past weekend to Gettysburg. I 
had never actually been there before and it was a really 
profound experience. I recommend it to anybody who has not 
gone. I could not help but be struck by the fact that less than 
150 years after that terrible, terrible battle, which was sort 
of the turning of a war to try and erase a terrible stain on 
our nation's history and our character and our claim to be a 
decent people, that we did as a society and as a country move 
to the point where the first African American was elected 
President of the United States. And it is no longer permissible 
in polite society for that sort of racism to be expressed. I 
encounter it very rarely. I know it is not eradicated, but it 
has been to an overwhelming extent eliminated.
    More recently I look back on my youth, let alone my 
childhood, and certain just calm and easy expressions of 
bigotry and really cruelty toward gay and lesbian members of 
our society, it was just okay. It was just kind of considered 
normative, if you will. I think we are moving to the point 
where that also is being eliminated, and yet this strange, 
toxic pathology of anti-Semitism persists and has a sort of a 
pass. I see it and hear it on college campuses. I teach at 
Tufts University. And I see and hear of it in a variety of 
venues. And so I don't know why, as we see society generally 
progressing, this one form of evil gets something of a pass.
    I was incredibly moved by Mr. Metaxas' brilliant exposition 
of how impermissible, insupportable this attitude is from the 
Christian lens and perspective, but I don't think we have 
cracked that nut. Certainly, Holocaust education is part of it, 
but at some level this goes very deep. We have to confront the 
evil within. What is it within societies that permit this to 
somehow be given a pass where other prejudices and other forms 
of racism and intolerance are not?
    Mr. Smith. Mr. Marino?
    Mr. Marino. Thank you, Chairman. This question, I think, I 
am going to direct to Mr. Metaxas. Am I pronouncing your name 
correctly?
    Mr. Metaxas. No one knows the actual pronunciation so that 
is just as good as any.
    Mr. Marino. Okay, so how about if we go with Mr. M? Thank 
you, sir. Thank you all for being here. A very specific 
question. I would like you to elaborate on it if you could, and 
if there is time, anyone else who wants to jump in, please do.
    I had the opportunity to visit Israel last year, spent a 
couple of sessions in a group meeting with Prime Minister 
Netanyahu and other officials. But equally important, meeting 
with the citizens of the people of the Israel and actually 
being there when there were attacks coming from Palestine. 
Hearing the explosions, hearing the sirens go off, and being 
told that they teach their children that they have about 15 
seconds once they hear that siren go off to get to some 
location to try and get protection.
    So how does one negotiate when Prime Minister Netanyahu has 
said to the Palestinians, I will talk with you anytime, 
anywhere, let us get started, but the so-called leaders of 
Palestine stand in front of the cameras and make statements 
such as, we may talk with you once we go back to what we want 
which are pre-1967 borders, and at that time we may stop 
attacking, we may sit down and negotiate? So what is the 
alternative there when you have--I am using this word loosely--
leaders in Palestine with that kind of talk and that kind of 
arrogant attitude?
    Mr. Metaxas. Well, if you are asking me how to negotiate 
with recalcitrant Palestinians, I don't know. I will tell you I 
think really the issue here, because we talk about realpolitik, 
we talk about what can we do. For me it is an issue, and I 
touched on this in my remarks, of foundational principles. Can 
we discuss, dare we any more in the climate in which we live, 
which is so infected with the political correctness, dare we 
assert the idea that some ideas are right and some ideas are 
wrong, and on what basis do we do that?
    In this country we have not historically been shy about 
that. We have asserted ideas. The founding fathers bequeathed 
to us this idea of ordered liberty, and I think we are at this 
point in history as Americans largely ignorant of what that 
even is, and we have enjoyed its blessings so much that we have 
become complacent and don't appreciate the fragility of this 
flower, of what the American experiment and ordered liberty is. 
I bring this up because I think at the heart of that is 
religious freedom and freedom of conscience. And if Americans 
themselves don't understand what this is, what this 
extraordinarily fragile and infinitely valuable gift is that we 
have been given, if we cannot articulate what that is how do we 
expect the rest of the world to do that? How do we expect the 
rest of the world to articulate what religious liberty is, what 
religious freedom is, why someone should be able to say 
something even though I don't agree with it?
    If we are not teaching that--and it gets back to 
education--if we are not teaching that in our schools, and for 
about 40 years in my memory we have not been teaching that 
anymore, because I am not sure that we believe it or that the 
cultural elites or the people who are in academia are 
comfortable with it or themselves believe it, so we have 
allowed ourselves to drift, to take this for granted and to 
think somehow that things will be okay. This fragile flower of 
religious liberty and the ordered freedoms bequeathed to us by 
the founders requires tending. If it is not tended by Americans 
it will die. And I don't see any other place on the surface of 
the globe where these wonderful ideas are just going to bubble 
up. Frankly, what bubbles up, traditionally, is tribalism, 
violence, sectarian violence. This is normal for what happens 
on the surface of the globe.
    So if we in America aren't vigilant about explaining and 
educating and ourselves understanding what it is that we have 
if, in fact, it is worth having and worth fighting for--if we 
don't understand it and require our children to understand it, 
America will evaporate. We are a nation of ideas, and if we 
don't have a citizenry that appreciates what it is that 
requires us to respect those with whom we disagree and to fight 
for those with whom we disagree, if we don't understand that 
all is lost. And so I would say to you here, this is at the 
heart of the problem, that we used to lead the world in this. 
We used to understand this. We certainly had leaders who 
understood this. We hardly do anymore, and it will lead to 
grave problems. And it is now obviously leading to grave 
problems.
    Mr. Marino. Thank you. I yield back.
    Mr. Smith. Thank you. Ranking Member Bass?
    Ms. Bass. Let me take the opportunity to thank the 
witnesses that are here today, and apologize to you to say that 
one of the things that is so challenging about life here in the 
Capitol is when you are supposed to be in three places at the 
same time. And so unfortunately I am not able to stay, but I 
definitely wanted to associate myself with the comments that 
you were just making when you talk about how vigilant we need 
to stay in our country, because in so many instances in history 
we have moved forward only to go backward.
    And we have certainly seen a rise of hate in this country 
like we haven't seen in many years just in terms of the number 
of hate groups that have sprung up, incidences that are 
happening all over the country. So the topic today, I think, is 
very appropriate and I appreciate you taking the time to come 
out. The community I represent in Los Angeles has a large 
Jewish community and, in fact, the Museum of Tolerance is in my 
district and has definitely been a shining light for the City 
of Los Angeles in terms of making sure that we always stay 
vigilant on these issues.
    I did want to ask a question about the newly created 
Atrocities Prevention Board. And I wanted to know--as a matter 
of fact I was there when the President announced that. I think 
it was 1 year ago or maybe it was even 2. But I wanted to know 
if you would comment on that, and this is directed to anybody 
on the panel, and how you think that might be leveraged to 
address anti-Semitism.
    Ms. Massimino. Thank you so much, Congresswoman. Human 
Rights First has worked extensively to help create the 
Atrocities Prevention Board and we continue to work there to 
press for a strategy that can address a broad range of tools 
for atrocities prevention. And of course a number of us on this 
panel have talked about the relationship between hate speech 
and the enabling environment that that creates and the 
perpetration of violence based on hate. We have seen that in 
our own society and we certainly see it across the globe. The 
Holocaust Museum had an excellent exhibit several years ago on 
the relationship between anti-Semitic propaganda and the road 
toward the Holocaust. And I think the United States can play 
the most constructive role perhaps than any other country in 
the world in navigating what to do about the relationship 
between hate speech and violence, because we have a strong 
commitment to free expression, but we also know that hate 
speech has to be confronted by political leaders.
    And I wanted to respond to this question of Mr. Cicilline 
about what Congress can do. And on this issue in particular, I 
think, through your relationships with your counterparts in 
other countries particularly in the countries of the OSCE but 
across the globe, I would urge all of you in your individual 
capacities to call out the lack of counter-speech by political 
leaders and in the face of anti-Semitism, and as well in the 
context of the OSCE of which we are a member and Mr. Chairman 
has played such a leadership role there.
    Ignorance and hate are a very lethal combination and 
education is hugely important. Education of youth, but also we 
need to understand a problem before we can solve it and there 
is a terrible data deficit about anti-Semitic hate violence. 
There are 21 states now in the OSCE who have committed to 
producing this data, collecting this data. Only five states are 
reporting on it in all of the OSCE, and we need to be a leader 
in changing that.
    Also I think Congress can be asking Secretary Kerry and the 
administration more broadly, what is the strategy for combating 
anti-Semitism? We view this as a national security issue, we 
think the administration should too. You all created the 
position of the Special Envoy on anti-Semitism. You should 
press to get an appointment there, somebody with the stature 
and credibility for cross-community outreach who can really 
help lead that strategy.
    And also on education, I think it is not enough just to 
look to the education of our own youth through the Museum of 
Tolerance or the Holocaust Museum, but we also--and this is 
something that Congress needs to take the lead on--need to look 
at the role of the Saudis in propagating hate through 
textbooks. These hearings are important, but it is a drop in 
the bucket when you think about the young people who are being 
educated using textbooks that demonize Jews. We are facing a 
generational problem and Congress should be inquiring about 
that.
    And lastly, I hope you will use the appropriations 
authority to support civil society groups who are working on 
the front lines in all of these countries to try to combat 
intolerance and anti-Semitism and hate crime. Thanks.
    Ms. Bass. Thank you very much.
    Mr. Smith. Thank you. Mr. Meadows?
    Mr. Meadows. I thank each one of you for highlighting this 
important and critical topic. As we look at it, who will be the 
next Bonhoeffers? Who will be the next Wilberforces? And I am 
looking at a panel that perhaps history will show that because 
of your efforts we will see you in that light. I just want to 
say thank you. I am jotting down a few notes as we have gone 
forward in terms of action items and I think, Dr. Jasser, you 
said name and shame to use your quoted words there as we look 
at that. And Dr. Lantos Swett, yesterday I know you were 
talking about the human rights violations that are not just 
with this particular issue but against women and children with 
Muslim Brotherhood as in your testimony yesterday.
    So my question to each one of you, if you could give us two 
action points of what we can do to highlight this and keep it 
in the forefront of everybody's mind. Because what we do is we 
create organizations. We create titles. We have international 
organizations that are for human rights, and yet they are 
hollow in terms of what they actually protect and stand up for. 
And so identifying those that are real versus not real, I would 
love two action points from each one of you in my time 
remaining. Dr. Swett?
    Ms. Lantos Swett. Well, something very specific and timely, 
I know that President Obama is getting ready to take his first 
trip to Israel since he became President, where the context, 
the platform, the forum in which one speaks out against these 
evils is often more important than the words that you say, 
because we could fill up this room from floor to ceiling with 
brilliant expositions on the evils of anti-Semitism but in a 
relatively obscure setting.
    I think it would be wonderful if all 435 members of the 
United States Congress were to call the White House in the next 
few days and say, we would like to have President Obama speak 
out in the biggest platform that he is going to have on this 
trip, which will get a lot of attention in Europe and the 
Middle East, about this issue. Context, platform, how big is 
that pulpit from which these critical things that as Dr. Garvey 
said, we all know, it is self-evident, and yet it is not spoken 
where it is heard. It has become sort of background and 
wallpaper. So that is kind of a very specific, concrete thing 
that in the runup to this very high profile visit which will be 
under the spotlight, huge pressure on the President to call out 
this sort of appalling, endemic saturation of anti-Semitism in 
the Muslim world that Dr. Jasser spoke about so powerfully.
    Mr. Meadows. In very clear terms, is what you say.
    Ms. Lantos Swett. In clear terms, and no moral equivalence. 
None of this on the one hand and on the other hand. Because the 
minute we sort of take this evil and kind of put it again on 
the wallpaper, well, we have got this unfortunate thing and we 
have got that unfortunate thing, and don't let me forget to 
mention this third unfortunate thing, you pretty much have 
robbed it of all of its power and all of its impact. So I think 
that would be one very concrete thing that I would suggest.
    Mr. Meadows. Okay.
    Ms. Lantos Swett. And I just want to say, because I know we 
are getting not far adrift, but one of the things that is so 
troubling is the resurgence of this evil in Europe.
    Mr. Meadows. Right.
    Ms. Lantos Swett. And I do hope we will have a chance to 
address that because it is very frightening to see it coming 
back there.
    Mr. Meadows. And maybe some of the rest of you can address 
that. Dr. Jasser, go ahead.
    Dr. Jasser. Yes, the two things I would say is, actually 
one main point is we need to create a national consensus. And I 
would say as obvious as anti-Semitism is, don't abandon this 
issue, because it is the issue that leads us to the conclusion 
as a nation that Islamism is the problem, is the root cause. 
That political Islam cannot be put in a wrap and made to look 
nice. It is a theocratic, theopolitical movement that we need 
to start looking upon the way we did communism.
    When Mr. Marino was talking about Israel, Hamas is the 
Muslim Brotherhood. It was an outshoot of it and that is what 
you get when the Brotherhood comes to power is this----
    Mr. Meadows. And is it true they don't even recognize the 
existence or Israel's right to exist, is that correct?
    Dr. Jasser. Exactly. And this is what happens when one 
faith group based on a political movement gets into control, 
other countries that have a secular basis that believe in 
liberal democracy will be looked upon as evil and will not be 
looked upon as their allies. So based on that national 
consensus, two things I would ask you to do. Demand that our 
Secretary of State, our White House, disengage from Islamist 
movements in Europe and America and in the Middle East, and 
then engage with Muslim movements that are proliberty, anti-
Islamist, and are looking to build platforms. Those two things. 
Disengage Islamists like the Brotherhood, and engage with anti-
Islamists.
    Ms. Lantos Swett. And I just want to jump in on one thing, 
because I think it is a point that needs to be made that 
pertains very much to what Zuhdi has talked about. And that is 
that much of the resurgence in Europe is coming from the 
radical elements of the Muslim community in Europe. So some of 
the re-infection, if you will, of this hatred and targeting of 
the Jews does trace its roots to precisely the movements that 
Dr. Jasser is referring to. So there is a link there. It is not 
just the Arab world.
    Dr. Jasser. And European Muslims are watching Al Jazeera 
and Middle Eastern media.
    Mr. Meadows. I see my time is expired. Thank you, Mr. 
Chairman.
    Mr. Metaxas. I apologize for having to walk out, but just 
to say that I do think it is a lack of will and resolve in the 
West that exists today that did not exist let us say 30 years 
ago, to call things what they are. That I would say is a 
misunderstanding of what liberty is, a misunderstanding of what 
freedom of expression is that would allow people to take 
advantage, ultimately, of our openness. That is what is clearly 
happening much more in Europe than it is is happening here.
    We know that it is happening in Great Britain. You may be 
familiar with the work of Baroness Caroline Cox over there. 
People are loath to see this. Somehow they are looking away 
from it. If we in America cannot reassert our foundational 
principles about what is right and what is wrong and stand 
against those who would bully us, who would take advantage of 
our openness, which is precisely what is happening that is 
allowing these things, then there is nothing to discuss. It 
really is up to us and we must decide whether we are willing to 
do that. Up until now, recently, we have absolutely not been 
willing to do that.
    Mr. Garvey. Can I just add one legal point to follow up on 
what Mr. Metaxas was saying? The First Amendment, as you know, 
provides more protection than we might wish for hateful speech, 
and I want to say two things about that which we need to keep 
in mind in these discussions. One is this: The fact that the 
First Amendment protects speech does not mean that it is not 
loathesome and shouldn't be condemned. Second, we have said 
since the 1920s, since Justice Holmes and Justice Brandeis 
first began speaking about this issue, that the remedy for 
hateful speech is more speech. And that is the one thing that 
all the members of the panel today and Mr. Meadows seem to have 
agreed on as something the government should do. The culture 
that we create by speaking out about anti-Semitism is, in some 
ways, the most important step that we need to take.
    Ms. Massimino. Can I add just one thing to that? You asked 
for a couple of action items from each of us, and I would say 
reiterating this point that something all of you can do. We 
cannot let any instance of anti-Semitic hate speech go 
unchallenged, and that is a big job, sadly. But we all have to 
take that up. We have to create a climate of intolerance for 
intolerance, and we need to call on members of civil society 
who fall down on that front, political leaders who fall down on 
that front. And then on the deterrent side we have to empower 
law enforcement where there is hate violence. We do a good job 
in this country, thanks to the Matthew Shepard Act and other, 
to prosecute hate crime. Other countries are not as well 
developed and we can help them through our law enforcement 
training and funding.
    Mr. Smith. Mr. Weber?
    Mr. Weber. Thank you, Mr. Chairman. A couple of questions. 
First of all for, I guess, Dr. Lantos Swett. I didn't catch the 
name of the gentleman, the high-ranking official that you had 
that discussion with.
    Ms. Lantos Swett. I can give it you. I don't have it off 
the top of my head. He was a deputy minister. And if I could 
finish that story briefly. After I confronted him, and of 
course the answer was basically, attack Israel, attack Israel. 
But I tried to pivot and I said, what if your President, Mr. 
Morsi, tomorrow were to stand up in a major platform and say, 
enough. This is a shame. This is a stain on our character. No 
more. I will not do it and we will not tolerate it among 
leadership in our Government and it needs to end. I said, well, 
the next day he would be lauded from every capital for standing 
up, courageously speaking out, trying to change in a high-
profile way this infection within the body politic of the 
Muslim world and that this would be a very positive thing. In 
sharing that conversation the following day with a group of 
reformers in Egypt, they gave a very, very disheartening and 
disturbing response. They said yes, but the day after the day 
after he said that he would be assassinated by his own people, 
which was sobering to say the least.
    Mr. Weber. Okay. My colleague here, Mr. Meadows, was asking 
for action items and I think--is it Massimino? Is that how we 
are saying that?
    Ms. Massimino. Yes.
    Mr. Weber. I think you made the comment that the Saudis 
have been basically promulgating anti-Semitism through their 
education literature. Do I remember that right?
    Ms. Massimino. That is right.
    Mr. Weber. So are you actively engaged in getting NGOs to 
go into countries and to combat this at the very lowest levels 
including preschool care, kindergarten, if you will, and up? 
Are you actively engaged in trying to employ the help of those 
people, the churches? I don't know what all kinds of 
organizations would be in those countries. You are coming to us 
and you are saying you need our help, and rightfully so. And I 
want to be, count me as being part of that help. But are you 
doing more than that? Are you going into the countries? Are you 
talking to people, to NGOs, to churches, to synagogues?
    Part of American's history was that when King George was 
really doing a number on us back in Colonial days, the 
preachers and the churches stood up and spoke out. And, I think 
we need that kind of ground swell and that kind of support from 
ordinary citizens. Are you going after that kind of support?
    Ms. Massimino. Well, it is a very good point. I think that 
behind it, I think, is this idea that change has to come from 
within these societies and at the ground level. And, in fact, 
we have talked to a lot of people in countries where this kind 
of education has taken hold. And there are many, many who are 
dissatisfied with that but have few alternatives. It is a 
massive societal problem and one that I think the U.S. 
Government could do a lot to address with funding of the local 
groups who want to make a difference.
    There is a limit, I think, to what organizations like mine 
that sit in New York and Washington can do on the ground there, 
but I can tell you that there are a number of people--this is 
not something that needs to be imposed from outside. There are 
plenty of people on the ground in these countries, they are 
fearful but they need support. They are not getting support in 
their own countries. And many of the countries, this is a 
circle of repression that you, Mr. Chairman, know so well with 
governments who try to cut off funding for those progressive 
groups who are trying to make a difference and they need to 
seek funding from outside. So that is something that the United 
States can be doing, is supporting the various civil society 
groups, religious groups, education groups and others who are 
trying to promote a more objective and invest in the long term 
education of their children.
    Mr. Weber. Okay, let me put you all on the spot. If the 
Saudis are indeed engaged in that practice, and I have no need 
to doubt that you are correct, would you all--I am going to put 
on my energy hat for a minute. I think that if America becomes 
energy independent and we don't export dollars to the Saudis in 
exchange for energy, then it actually helps us on two fronts, 
would you agree? And would you help spread the word that 
America needs to be energy independent? I am going to 
proselytize you all from that end. Can I get an amen?
    All right. I see that my time is expired, Mr. Chairman, 
thank you very much.
    Mr. Smith. Mr. Weber, thank you very much.
    I want to thank our very distinguished panel. You have 
provided incredible insights and suggestions and I hope that 
many members read this record. It will be widely disseminated. 
And thank you so very, very much for your testimonies.
    I would like to now welcome our second panel to the witness 
table beginning with Dr. Tamas Fellegi who began his career 
teaching law and government in Hungary. He went on to become a 
research fellow at Harvard and earned a Ph.D in the United 
States. After teaching, he worked in the private sector before 
joining the Hungarian Government to serve as Minister of 
National Development, and then to lead Hungary's financial 
negotiations with the International Monetary Fund and European 
Commission.
    We will then hear from Mr. Willy Silberstein who has served 
as the chairman of the Swedish Committee Against anti-Semitism 
since 2009 where he works to counter anti-Semitism through 
education. He has also worked as a journalist, editor, and 
commentator for newspapers, magazines, and television channels 
in Sweden, and as a foreign correspondent in Belgium. He now 
runs his own company that focuses on the media.
    We will then hear from Rabbi Andrew Baker who is the 
director of International Jewish Affairs for the American 
Jewish Committee, and the personal representative of the 
Organization for Security and Cooperation in Europe Chair-in-
Office on Combating anti-Semitism, and has been reappointed in 
each year since 2009 to that extremely strategic and important 
position. Rabbi Baker has served as president of the Washington 
Board of Rabbis, president of the Interfaith Conference of 
Washington, and I know I have worked very closely with him over 
these many years in combating anti-Semitism, and thank him 
again publicly for his extraordinary work.
    We will then hear from Rabbi David Meyer who is a rabbi 
based in Brussels, Belgium, and professor of Rabbinic 
Literature and Contemporary Jewish Thought at the Gregorian 
Pontifical University in Rome as well as the University of 
Leuven. He is also a regular visiting professor in universities 
in Peru and in China teaching Judaism. He is also involved with 
projects in Rwanda working with Tutsi survivors of the genocide 
of 1994. Rabbi Meyer has now published six books on theological 
and rabbinic issues.
    We will then hear from Rabbi Yaakov Bleich who is 
originally from Brooklyn, New York, but who moved to Kiev, 
Ukraine in 1989, where he was named Chief Rabbi of Kiev in 
Ukraine shortly thereafter and served in that post ever since. 
He has been instrumental in founding many organizations in the 
Jewish community in Ukraine. Rabbi Bleich has worked to advance 
interreligious and interethnic relations in Ukraine and around 
the world.
    And finally we will hear from Mr. Andrew Surlevitch who is 
the anti-Defamation League's Director of European Affairs. He 
engages with European Jewish communities to monitor, react to 
anti-Semitism, and analyzes European governments' relations 
with Israel and policies on the Middle East peace process. He 
previously worked at the Conference of Presidents of Major 
American Jewish Organizations, and served as executive director 
of UN Watch in Switzerland. I thank you for being here and for 
your testimony.
    Dr. Fellegi?

     STATEMENT OF TAMAS FELLEGI, PH.D., MANAGING PARTNER, 
      EUROATLANTIC SOLUTIONS (FORMER MINISTER OF NATIONAL 
              DEVELOPMENT, GOVERNMENT OF HUNGARY)

    Mr. Fellegi. Thank you very much, Mr. Chairman. It is an 
honor for me to testify for and about Hungary. It is the 
country where I was born, and where as a Jew and as a 
descendant of Holocaust survivors I feel at home. Preparing for 
this public hearing I spoke to executives of Jewish 
organizations, religious leaders, university professors, 
government people, and opposition figures. However, what 
follows here represents my ideas and my evaluation of the 
current situation. Mr. Chairman, I have submitted a written 
testimony, and I would like that to be included in the record 
of the hearings.
    I would like to anchor my brief opening statements on three 
main tenets. First, the rise of anti-Semitism has complex 
reasons, but at its core the current phenomenon is an 
expression of frustration with Hungary's imperfect democratic 
transition. Second, only Jobbik, a party with a 10-percent base 
among the national population is an openly anti-Semitic party. 
There is a clear line of demarcation between Jobbik and the 
center-right government and all other mainstream political 
parties in Hungary. Third, despite the presence of Jobbik and 
anti-Semitic rhetoric, Jewish life including religious life has 
been witnessing a renaissance in Hungary that is welcomed by 
all mainstream parties.
    Let me put all this into historic perspective. Prejudice 
against Jews both open and latent has always been present in 
Europe. But it is important to distinguish between deep-seated 
prejudice against Jews and the use of anti-Semitism for 
political manipulation. Following the era of Admiral Horthy, 
which was marked by a Nazi-style, anti-Jewish legislation and 
ultimately by the Hungarian Holocaust, the issue of anti-
Semitism was swept under the rug during the almost 45 years of 
Communist rule. The democratic changes of 1989-1990, including 
freedom of speech and of the press allowed for suppressed 
frustrations and debates about our troubled past to come to the 
surface. They also enabled ever-present latent anti-Semitism to 
become manifest. Several openly anti-Semitic political and 
civic organizations were formed, but they never--let me 
emphasize this point--never ended up in government.
    The most recent example is the xenophobic party, Jobbik, 
which started out as a radical anti-establishment movement. In 
2010, after 8 years of socialist-liberal government which 
brought Hungary to the brink of economic collapse, Jobbik 
managed to get around 15 percent of the popular vote to become 
the third largest party in the Hungarian Parliament. It also 
cultivated an agressive paramilitary arm which was banned by 
the present government but keeps reinventing itself. It has 
become a fact of life that Jobbik politicians taking advantage 
of freedom of speech have the openly racist views on Web sites 
and in print magazines and even in the Hungarian Parliament.
    A negative consequence of this has been the decline of 
public sensitivity toward racism. What is also there, however, 
is that Jewish life in Hungary started to blossom from day one 
of the advent of democracy. Hungary has one of the largest 
Jewish populations in Europe, with some estimates going as high 
as 120,000. It supports extremely popular summer camps, 
schools, synagogues, and the Summer Festival that attracts Jews 
from all over Europe. There are courses in Hebrew offered by 
language schools and there are a number of new Jewish weeklies 
and periodicals. All historic Jewish groups are acknowledged 
and registered as established religions. Along with growing 
anti-Semitism these facts should not be ignored.
    Let me briefly list the milestones that democratic Hungary 
has carried out since the collapse of communism in an effort to 
reconcile with the Jewish community. The establishment of the 
Hungarian Jewish Heritage Fund. The Kaddish was recited in 
Parliament in a memorial for victims of the Shoah. A national 
Holocaust Memorial Day is compulsory in all public schools on 
April 16th, commemorating the anniversary of the start of 
deportations in 1944. Teaching Holocaust history was made 
mandatory in schools from fifth to twelfth graders. The 
Holocaust Memorial and Documentation Center and the House of 
Terror Memorial Museum were established.
    Holocaust survivors restitution claims have been settled. 
Pension payments to Holocaust survivors were doubled. 2012 was 
designated Raoul Wallenberg Memorial Year. A Holocaust Memorial 
Committee chaired by the head of the Prime Minister's office 
has been set up to commemorate the 70th anniversary of the 
Hungarian Holocaust next year. Hungary repeatedly requested the 
U.S. authorities to shut down the openly anti-Semitic, Nazi-
style Hungarian language Web site called kuruc.info which 
operates in the United States. Paramilitary groups inciting 
hatred were banned and the criminal code was tightened 
regarding uniformed crime. Parliamentary House Rules were 
amended to allow the Speaker of the House to fine or expel MPs 
if they use hateful language. Finally, the first court verdict 
that convicted a Holocaust denier was handed down. The court 
sent the offender to visit either the Holocaust Museum, Yad 
Vashem or Auswitz, and write a report about the trip.
    I earlier referred to the fact that anti-Semitism and 
racism in general have been on the rise, which tells us that 
Hungary must do much more in this field. Having said this, let 
me conclude by a probably surprising closing statement. In 
terms of government actions to foster Jewish life and combat 
anti-Semitism in Hungary, all of the milestones I listed a 
minute ago, with the exception of the Jewish Heritage Fund, put 
in place during the first and second administrations of Prime 
Minister Viktor Orban.
    Thank you very much for your attention. I am ready for your 
comments and questions.
    [The prepared statement of Mr. Fellegi follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Fellegi, thank you very much for your 
testimony.
    I would now like to ask Mr. Silberstein, if you could 
proceed.

STATEMENT OF MR. WILLY SILBERSTEIN, CHAIRMAN, SWEDISH COMMITTEE 
                     AGAINST ANTI-SEMITISM

    Mr. Silberstein. Let me start by telling you about Shneer 
Kesselman. Shneer Kesselman is a rabbi in the Swedish city of 
Malmo, a city which I am sorry to say is infamous for its anti-
Semitism. When Shneer Kesselman, sometimes when he goes out 
with his children he is being threatened. People throw cans 
after him. They curse him and say things I do not wish to 
repeat here. And what differs Shneer Kesselman from other 
Swedish citizens who are Jewish in Malmo is that people can see 
that he is Jewish because he wears orthodox clothes. And this 
means that had it been possible to identify other people in my 
Malmo or elsewhere as Jews, they would have had the same 
problems.
    We have seen that a number of Jewish families in Malmo have 
left the city. They moved to Stockholm, the capital of Sweden, 
some of have also moved to Israel. Who would have thought some 
decades ago that Jewish families in Sweden would feel ashamed 
to live in a city with so much anti-Semitism, and move? I don't 
think anyone would have guessed that. So who is behind this 
anti-Semitism mainly in Malmo? Of course there are several 
groups. We have extremists to the left, we have extremists on 
the right side, and we have also people who are not really that 
much into politics but who do have prejudice against the Jews.
    And then we must also admit that there are people who have 
moved to Sweden from the Middle East, Muslims who take with 
them the conflict from the Middle East to Sweden, and they make 
Swedish citizens who are Jewish responsible for what another 
country, Israel, does. Needless to say, that is totally 
unacceptable. And let me at the same time be clear, I believe a 
large portion of the Muslims in Malmo and elsewhere in Sweden 
are not anti-Semitic, but still there are too many who are.
    At the same time we have seen positive counter-reactions. 
An organization called Young Muslims Against anti-Semitism has 
been formed and is active. In Malmo, you may have heard about 
that, we had so-called kipa-marches. People have gone out to 
the streets, some of us with a kipa on our head, and we have 
protested against anti-Semitism in Malmo. And to my great 
pride, I would like to add that many of those who march with us 
were non-Jews.
    We know more or less for a fact that anti-Semitism is on 
the rise in Sweden. Polls have been made that confirm that. We 
get more people who, for instance, agree with statements like, 
the Jews are too influential in the world. One out of three say 
there is too much talk of the Holocaust in the world, and one 
out six say Jews are greedy. That happens among high school 
students in Sweden today. And as been said here before, I would 
like to say the same thing. Fighting anti-Semitism in the long 
run is also working against racism that can hit anywhere. A 
society that accepts hatred against Jews will surely pick other 
groups be it Muslims, Christians, homosexuals, and other 
groups. It may start with the Jews. It will surely not end with 
the Jews.
    And let me end on a personal note. My mother was liberated 
by American soldiers in a concentration camp in 1945. She would 
have been impressed if she could have seen this which is going 
on in this room right now. She would have been proud, but she 
would not have been surprised. So therefore, thank you so much 
for bringing your spotlight to a rise in anti-Semitism in a 
continent that has endured so much hatred already. And I would 
like to see a manifestation like this on high political level 
with European politicians. We must show that we have learned 
our lesson. Silence is never again an option. Thank you very 
much.
    [The prepared statement of Mr. Silberstein follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you so much, Mr. Silberstein, and thank 
you for traveling here, coming such a long way.
    Rabbi Baker, welcome.

  STATEMENT OF RABBI ANDREW BAKER, PERSONAL REPRESENTATIVE ON 
 COMBATING ANTI-SEMITISM, OFFICE OF THE CHAIRPERSON-IN-OFFICE, 
      ORGANIZATION FOR SECURITY AND CO-OPERATION IN EUROPE

    Rabbi Baker. Mr. Chairman, thank you, and of course thank 
you for everything you have done in this critical area. I would 
like to lay out what I think are really the major themes 
suggesting the problems that are faced, that are being 
addressed here in this hearing today. The first goes to the 
basic issue of community security. Only a week ago, the 
security service of the Jewish community in France issued its 
annual report and it described 2012 as a year of unprecedented 
violence against Jews. Physical attacks nearly doubled over the 
previous year, and that increase was more than eight times 
higher than all other racist and xenophobic acts in the same 
period. You will recall that those acts included the murder of 
four at a Jewish school in Toulouse, an event that drew 
international attention.
    But that report reveals that following this attack there 
was, in fact, a spike in incidents. Rather than generating 
awareness and sympathy, there were instead support and 
identification with that anti-semitic murderer. Now France may 
stand out with the number of attacks. With the largest Jewish 
community in Europe it surely offers the largest number of 
potential targets. But that community is not alone in the need 
to address an increasing security threat. Other western 
European Jewish communities face similar challenges.
    Physical attacks directed toward persons and property are a 
part of daily life, so the need to protect synagogues and 
community centers with secure entryways. Experts indicate now 
they need to be prepared as well for the possibility of 
international terror attacks. It is a formidable challenge, 
especially for small communities with limited budgets. It spans 
the continents as, in fact, I witnessed during my OSCE travels. 
The 1,000 Jews of Olso, Norway, and the 1,000 Jews who live in 
Melilla, a Spanish enclave in North Africa, may appear to have 
very little in common. But both communities are spending an 
inordinate share of their budget simply to keep their members 
safe.
    Governments have a basic obligation to provide for the 
security of their citizens and they also affirm a bedrock 
commitment to the free exercise of religion. And yet these 
security needs and the financial burdens that many communities 
now face seriously call these principles into question. So it 
is that these quite elemental challenges of a decidedly 
practical nature ultimately pose an existential threat to the 
future of Jewish life in Europe. The sources of these attacks 
are generally well known. Right wing, neo-Nazi groups have long 
been a focus of concern, and we need to remain vigilant about 
that. But the recent increases that are documented in France 
and elsewhere in Western Europe largely come from parts of the 
Arab and Muslim communities.
    Knowing the source of these attacks is necessary in order 
to devise ways to prevent them, through law enforcement in the 
short term and through education in the longer term. Yet some 
governments willfully do not want to know and they have limited 
their monitoring tools so that they will not be confronted with 
these facts. That may be a reflection of political correctness 
or a fear that such data are likely to increase anti-Muslim 
sentiments, but either way they contribute to the problem.
    Anti-Semitism in public discourse is something you know 
well, Mr. Chairman. You participated in 2011 in the OSCE 
conference in Prague that addressed this issue. The fact is 
that popular attitudes about Jews may not derive from firsthand 
knowledge. Jewish populations are often quite small in these 
countries. So they more frequently come from inherited 
prejudices or what people see and hear in the media. That media 
coverage often features highly critical descriptions of the 
State of Israel, and at times as some have already indicated, 
that criticism crosses over into anti-Semitism. When Israel is 
demonized, when its legitimacy as a Jewish state is questioned, 
when its actions are compared to the deeds of the Nazis, this 
is not mere criticism.
    Aspects of this problem were referenced in that seminal 
OSCE Berlin Declaration adopted in 2004. It was described in 
more detail a year later in the working definition of anti-
Semitism promulgated by the EUMC, now the EU Fundamental Rights 
Agency. That working definition also warns against holding 
local Jewish communities responsible for the actions of the 
State of Israel. But that regularly happens. Jews and Israel 
are conflated, and the incidents in the Middle East and the 
Israeli-Palestinian conflict trigger attacks on Jewish targets 
in Europe. European Jews have their own views about Israel, and 
they may vary widely. But only they are being told that they 
must publicly condemn the Jewish State as the price for support 
or for civic inclusiveness.
    Last year a government funded Norwegian study found that 38 
percent of the population agreed that Israel's treatment of the 
Palestinians was akin to the policies of the Nazis. It was a 
sobering statistic even for political leaders who are openly 
pro-Palestinian in their views.
    Extremist political parties. The growth of right wing, 
populist parties in some European countries is a new cause for 
alarm. The severe economic problems and the inability of 
mainstream political parties to cope have opened a door to 
extremist views. Parties such as Jobbik in Hungary, Svoboda in 
Ukraine, Golden Dawn in Greece have found success following a 
path already trod by established movements such as the National 
Front in France, the Freedom Party in Austria. Xenophobic 
appeals vie for primacy with equally hateful anti-Semitic 
messages. And as a result of election successes these words are 
no longer confined to street corner rallies. They now echo in 
the halls of Parliaments.
    Jobbik leaders demand a listing of Hungarian Jews. Golden 
Dawn party attacks the very idea of Holocaust education. The 
Svoboda Party features anti-Jewish rhetoric in the halls of 
Parliament defending the use of the word ``kike.'' The danger 
may not be in the support that these parties have. They are 
relatively confined to 10-15 percent of the population. But 
they already exert a gravitational pull from even mainstream 
parties. They are nervous about those potential voters or they 
are seeking those votes themselves.
    Finally, a fourth area to be identified has been the limits 
being placed on basic Jewish ritual practice. We have witnessed 
the efforts in various European countries to restrict or to ban 
the practice of ritual circumcision and kosher slaughter. 
Proponents of these efforts may not necessarily be anti-
Semitic, they may be self-described animal rights advocates or 
protectors of children. Political support, in fact, is broader. 
It may draw particularly on anti-Muslim sentiments, since a ban 
on these practices affects Muslim communities as well. But the 
reality is that legislation came close to being passed in the 
Netherlands. A regional court in Germany issued a ruling 
prohibiting circumcision causing the government to come forward 
with new legislation.
    The fact is that some countries have maintained bans on 
ritual slaughter that pre-date any animal rights activism. They 
were intended to be anti-Semitic in nature, to keep Jews out. 
Country by country Jewish communities in postwar Europe worked 
out their own understanding of what was needed. They quietly 
negotiated with their respective governments. In some cases 
exceptions were granted or conditions were voluntarily 
accepted. Rarely did these issues rise as topics of public 
debate. But that has now changed for several reasons. Western 
European societies have become increasingly secular, and as a 
result there is less respect for religious practice generally. 
It is particularly evident when addressing these practices that 
are considered archaic or even barbaric, such as shechita and 
brit milah. A large and growing Muslim population in Europe 
means that they are more prevalent and thus more likely to 
require a legal framework, an official regulation in which to 
operate. As a result, the ad hoc approach that served the needs 
of mostly small Jewish communities is now beginning to unravel, 
and public discussions and blog postings easily turn to anti-
Semitic expressions.
    With all of the difficulties that have been enumerated 
above, we should not lose sight of the fact that if there is a 
ban on these age old precepts of Judaism, it would also 
threaten the very future of Jewish life. Let me conclude here, 
and I have appended to my written testimony a number of my OSCE 
reports. And thank you again, Mr. Chairman.
    [The prepared statement of Rabbi Baker follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much, Rabbi Baker. Without 
objection, your reports and your entire testimony and that of 
all of our distinguished witnesses will be made a part of the 
record. And thank you for that very fine testimony.
    I would like to recognize Rabbi Meyer, if you would 
proceed.

     STATEMENT OF RABBI DAVID MEYER, PROFESSOR OF RABBINIC 
    LITERATURE AND CONTEMPORARY JEWISH THOUGHT, PONTIFICAL 
                      GREGORIAN UNIVERSITY

    Rabbi Meyer. I would like, first of all, to thank you for 
asking me to testify in front of this committee and to offer me 
the opportunity to share my experience of anti-Semitism in 
Europe, but as well my understanding of the nature of what I 
perceive as a renewed threat of European anti-Semitism. Now as 
a rabbi based in Brussels, at the heart of Europe, and carrying 
both a French and an Israeli citizenship, I have witnessed and 
experienced in my life the reality of what it means to be a Jew 
at least in Western Europe.
    I was born and raised in Paris. I have lived in France for 
many years. I have served as a rabbi in the United Kingdom and 
as well as in Brussels. I am working in universities in Rome as 
you have mentioned. But let me add that my personal life has 
taught me some difficult experience of anti-Semitism. First of 
all, of course, because of the memory of my own family which is 
the memory of the Shoah, but also because as a young boy at the 
age of 13 I was the victim of the first terrorist attack 
against my synagogue in 1980. But also some more subtle forms 
of anti-Semitism that I have experienced later on in my life in 
the political French or British arena. So now between my work 
in Rome and France and Belgium and England, I think I have 
maybe some sort of perspective at least on the current state of 
anti-Semitism in Europe.
    Now I believe that two powerful trends of anti-Semitism are 
currently at work in most European countries, and permit me to 
illustrate this with just two recent concrete examples which 
have already been mentioned before in the panel. The first 
example just literally over a year ago in the small Jewish 
school of Toulouse in March of last year. And we know that 
there, a radical young French Muslim man killed, literally, in 
cold blood three Jewish children, age three, six and eight, as 
well as the rabbi who was also a teacher in the school and who 
was the father of some of the victims. And the killer not only 
did the killing but also filmed his action with a certain 
pride, certainly, and intended to post it on the Internet. And 
we all know and heard about that atrocity.
    The second example I want to mention relates to a trend 
that many have observed in Europe during the last decade. And 
that trend has taken the form of this proposed legislation that 
we have already mentioned a few times this morning that tend to 
outlaw some Jewish practices and some Jewish rituals. At first 
it started many years ago with questions about Jewish kosher 
ritual slaughtering, but more recently as we know, it moved 
against circumcision. And only last year the German courts 
attempted to ban circumcision, defining it really as a barbaric 
practice that was totally contrary to the understanding of 
European human rights, and insinuating that such a Jewish 
practice was not equal or proper European custom.
    Now the idea spread within weeks to its neighboring 
countries, notably to Switzerland, to Austria, but to others as 
well, and what is worrying is that many in the intellectual and 
in the university circles have been very receptive and very 
sympathetic to that kind of arguments. Now of course today the 
German ruling have been quashed, but there is very little 
question in my mind that the problem will come back and 
eventually we will have to face such a difficult situation. So 
from these two very different examples of attacks against Jews 
and Judaism, I think some understanding of what is at stake in 
Europe can be gained.
    First, there is no doubt that many of the violent acts of 
anti-Semitism in recent years have been at the hands of 
radicalized youth, often from Muslim backgrounds, very often 
marginalized by society and influenced by their religious 
preachers and leaders. Often the acts of violence are linked as 
we know to the conflict of the Middle East, and what is a 
racist violence against Jews is often masked as a frustration 
and a real hate against the State of Israel. We are all aware 
that in that respect and for those people, the use of the term 
anti-Zionism is simply a code word and it really stands for 
anti-Semitism. Now it is of course totally impossible for any 
of us to understand what went through the mind of the killer in 
Toulouse as he shot the Jewish children, but I think it is not 
a stretch to say that the Israeli conflict was probably not, 
really not what made him put a bullet through the brains of 
these children and the rabbi.
    Now at this first level many in the Jewish community 
believe, and I think they are right, that as long as this link 
to the conflict in the Middle East is tolerated, as long as 
this radical form of violent Islam is tolerated, and as long as 
virulent calls to delegitimize the very existence of Israel is 
tolerated, then anti-Semitism will also of course be tolerated 
because as Jews, whether or not we carry a dual citizenship as 
I do, our link with Israel is deep, it is real and it is 
enduring, and as such we will continue to be seen as related to 
Israel.
    Now second, and developing in the shadow of these very 
violent and visible attacks against Jews, is the very concept 
of Judaism, I think, as a religion that is now somehow 
questioned by many in Europe as being simply not compatible 
with European ethics, human rights, charters, and 
sensitivities. As a European Jew, I can say that what hurts the 
most today is the knowledge that behind these various attempts 
at undermining the legality of Jewish practices lies the widely 
held view that even after 2,000 years of attested Jewish life 
in Europe we are still perceived as a foreign tribe who has 
recently landed on the continent, and that when all is said and 
done we are still often perceived as a tolerated minority whose 
religious practices are well below the standards of the image 
Europe likes to project about itself.
    Now antagonizing through the coverup of legal proceeding 
with a moralistic undertone, the ethics and practice of Judaism 
on one hand versus the European understanding of its own 
charter of human rights on the other hand runs the risk of 
putting for the long term Judaism in Europe on a colliding path 
that is most worrisome and potentially very dangerous. In 
addition I feel it is important to add that the legal nature of 
this new anti-Semitism is particularly troubling. As worrisome 
as the street noises, it is through legislation that some in 
Europe are attempting to give a cloak of respectability to 
anti-Semitism, and the memory of the past century should make 
it crystal clear that legal proceeding against Judaism and its 
practice never stop with a attacks on religious practices 
alone. It inevitably ends with attacks against Jews which are 
eventually also done under the cover of legality. Now it is my 
view to conclude that what Europe needs to do maybe, in order 
to truly fight anti-Semitism, is to really accept, really to 
accept and not just to tolerate its own Jewish population. To 
value Judaism and to value Jewish community in Europe cannot be 
limited to simple words of comfort when tragedy strikes. We 
appreciate the words of comfort but that is not really what we 
need. It requires more than that. It needs a leader to show a 
real interest in Judaism and to do so publicly. An interest 
that would not simply be the expression of a devotion to the 
mythical image of the Jews that would be just a remnant from 
the past that once contributed to the makeup of Europe and its 
culture and later almost exterminated from Europe, but rather a 
genuine interest. Because as a minority even if very small in 
number, very small and declining, we are still contributing to 
make Europe what it is today, bringing a certain diversity of 
values and knowledge. Tolerating any level of anti-Semitic acts 
against Jews, either under the cover of anti-Zionism or less 
subtly for just being Jewish, is a sign of a wider feeling of 
intolerance and hate within our society and not just against 
Judaism but against all citizen of all faith and threatens a 
return to the darkest years in Europe when those who were 
different were selected for a fate that we all remember.
    So thank you so much for taking the time to listen to this 
brief testimony and contribution to your discussion.
    [The prepared statement of Rabbi Meyer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Rabbi Meyer, thank you very much for your 
excellent testimony, and I would like to now ask Rabbi Bleich 
if he would proceed.

   STATEMENT OF RABBI YAAKOV BLEICH, CHIEF RABBI OF KIEV AND 
                            UKRAINE

    Rabbi Bleich. Thank you very much. First and foremost, I 
would like to say how proud I am to be here today. I am proud 
not only as the Chief Rabbi of Ukraine who has been living in 
Ukraine for 23 years through Soviet rule, downfall, and the 
birth of an independent Ukraine, but I am proud as an American 
citizen that my country recognizes that opportunities cause 
obligations. The opportunity for these distinguished members of 
the House to positively affect the lives of Jews and other 
minorities living in Europe has caused them to act and have 
this hearing today.
    On the one hand, I think that many in Ukraine would be 
quite happy about today's hearing. We finally made it. We are 
part of Europe. Something that we have been pushing and 
bargaining for, for many years. However, it is quite 
unfortunate circumstance that brings us here today, the 
question of anti-Semitism in Ukraine. Being that the situation 
with anti-Semitism in Ukraine is very different from Western 
Europe, I would like to explain a few things about the history 
of anti-Semitism in Ukraine.
    There were historically two camps in Ukraine that were 
competing with each other. There was the extremist negative 
nationalist animosity toward Jews, which is probably best 
portrayed in Sholom Aleichem's writings such as ``The Fiddler 
on the Roof.'' But moreso was the government sponsored anti-
Semitism begun by the czars as official edicts and decrees 
against the Jews. It was perfected to a science by the Soviets. 
I won't even mention or get into when the government provoked 
the local pogroms and used the locals. During Soviet times Jews 
were systematically discriminated against in every single 
sphere of society and social life. As of 1992 and Ukraine's 
independence, government anti-Semitism has--thank God--all but 
disappeared. There are instances of anti-Semitic acts carried 
out in Ukraine, but I would like to now speak about the form 
and substance of anti-Semitism problems in Ukraine, home to one 
of the largest Jewish communities in Europe.
    Besides being a society that has not yet perfected to put 
it mildly, the rule of law, Ukrainian Jews live in a double 
shadow of the Holocaust and Soviet rule. The first and foremost 
form, of course, is acts of violence and vandalism. When people 
and property are attacked because they are Jews, which we have 
been hearing about this morning, that is an expression and most 
painful form of anti-Semitism, and thank God that is the least 
prevalent in Ukraine. Although we have had instances of 
attacks, thank God they have been few.
    The second form of anti-Semitism is publication of 
literature, speeches, political platforms which incite or may 
incite against Jews as individuals or as a group. This is more 
prevalent although not at epidemic proportions at all. I think 
it is important to point out that there was a time not too long 
ago when this was a very serious problem in Ukraine. There was 
a so-called university in Ukraine which was printing and 
distributing tremendous amounts of anti-Semitic literature with 
total impunity in Ukraine. This was stopped when the ones who 
were sponsoring this anti-Semitism withdrew their financial 
support. By the way, the sponsors were not Ukrainians and not 
even people or groups living or based in Ukraine.
    The third form of anti-Semitism, which I think is unique to 
that part of let us say Eastern Europe and Soviet Union, is 
what I call psychological anti-Semitism. It may be unique to 
countries that have suffered from the Holocaust and from 
government anti-Semitism. People who have suffered from a 
feeling of being unprotected by law enforcement will react and 
be frightened when seemingly harmless things happen such as a 
street being named in honor of Stepan Bandera. Most Jews and 
many others consider Bandera and his group of Ukrainian 
nationalists in Western Ukraine responsible for dozens of 
pogroms during World War II and the time before and after. It 
may or may not be true, but to someone who believes it, it will 
be frightening. When former President Yushchenko who was widely 
regarded as pro-Western and prodemocratic was President of 
Ukraine, when he decided to honor Bandera and Shukhevich with 
the highest civilian honor as Heroes of Ukraine, it brought out 
a terrible reaction by the Jewish community. Nobody was hurt. 
No one was attacked. Nobody was cited or spoken against. But 
for the psyche of a Ukrainian Jew that was anti-Semitic. And 
that brings me to the subject at hand.
    I believe that 7 percent of the parliamentary seats in 
Ukraine occupied by members of the Svoboda party is definitely 
something that should concern us all. It should not be 
downplayed or ignored. Just as we all agree that understanding 
the true threat is very, very important, understating it is 
wrong, so too overstating it and blowing it out of proportion 
is damaging. I am not an apologist for Ukraine nor for its 
government or its people. However, I think it is important that 
we study the source of the votes, evaluate that true power of 
the party, its members, and know where it is heading.
    The Jews of Ukraine, a historically vulnerable community, 
does not feel very vulnerable. This may be naivete or it may be 
the fact that Svoboda has never put up a serious platform. The 
majority of their voters were protest voters voting for the 
most outspoken opposition party. The Svoboda party has not been 
able to achieve anything in the local councils that they 
control, and in the opinion of some analysts, Svoboda is just a 
populist party whose members are not united by any ideology 
whatsoever other than a seat in Parliament and the power that 
comes with it. Indeed, Mr. Tyagnabok, the head of the party, 
has been trying to meet with members of the Jewish community to 
convince them that he is not in any way anti-Semitic. He has 
met with the United States' Ambassador and more recently with 
the Israeli Ambassador. So the impression is that Mr. Tyagnabok 
just doesn't control the members of his party.
    That is not very comforting since the rhetoric is 
continuing. It may, however, show that the party has no 
discipline, which may stop them from introducing any serious 
legislation to the Parliament. However, if the politics of 
right wing nationalism, anti-Semitism, xenophobia, are allowed 
to fester and are ignored, the danger of this 7 percent growing 
is very possible. Nobody is passing laws or even trying to pass 
legislation against Jews in Ukraine. No one is calling for Jews 
to be deported, or worse, God forbid. However, we need not wait 
for something like that to happen.
    We therefore appreciate the statements made by the 
government, by Prime Minister Azarov stating that the 
Government of Ukraine will never negotiate agreements for 
coalition or legislation with Svoboda or any party that puts 
forth anti-Semitism as part of its platform. While anti-
Semitism remains a political problem in Ukraine, there is by no 
means a greater threat than in other East European countries 
nor in many established European democracies where anti-Semitic 
parties and leaders retain significant political support. 
Moreover, the Government of Ukraine has a pretty good level of 
high level participation and events organized by the Jewish 
community including Holocaust commemoration.
    Jewish life inside Ukraine is dynamic with the functioning 
of numerous Jewish schools, vibrant religious life, and a 
network of important cultural and community centers. In 
addition, significant work is being done by Ukranian NGOs and 
research institutions and by a network of scholars who are 
committed to examining the historical evidence related to the 
Holocaust, Soviet era official anti-Semitism and anti-Jewish 
violence that erupted over the centuries. A number of energetic 
publishers issue a wide array of books on Jewish culture, 
Ukrainian Jewish history, Holocaust studies in Ukraine for a 
general audience and for higher educational institutions.
    Finally, Ukraine's state relations with Israel are on a 
very strong footing, including in the cultural sphere, which 
contributes to confidence of Ukraine's Jewish community and 
reinforces strong links between the Jewish homeland and 
Ukraine's Jewish diaspora. I hope that Ukraine continues its 
development into a true Western democratic, pluralistic society 
where all citizens will continue to feel safe and protected. It 
is my hope that European leaders will all join in making that 
statement reality. That Jews throughout Europe and indeed the 
world will live as full citizens of their countries and that 
anti-Semitism, anti-Zionism and other negative feelings of 
discrimination and xenophobia are overpowered by feelings of 
respect and harmony.
    I would like to thank the NGOs, the basis of our great 
democracy here, and civil society in the United States for 
seeing beyond the borders of the United States and speaking out 
on these issues. I especially want to thank Mark Levin and the 
NCSJ for being our voice in Washington for so many years.
    [The prepared statement of Rabbi Bleich follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Mr. Smith. Chief Rabbi Bleich, thank you very much for that 
very powerful testimony and thank you for being here, for 
coming all this way. I would like to now, Mr. Srulevitch, if 
you would proceed.

   STATEMENT OF MR. ANDREW SRULEVITCH, DIRECTOR OF EUROPEAN 
                AFFAIRS, ANTI-DEFAMATION LEAGUE

    Mr. Srulevitch. Mr. Chairman, on behalf of the anti-
Defamation League I want to express our appreciation to you and 
to the members of the subcommittee for holding this hearing 
today, and for the many hearings, letters and statements with 
which you have underscored the importance of combating anti-
Semitism. ADL's written statement covers a variety of concerns 
relevant to this hearing and the subcommittee, but one of the 
most alarming, as has been spoken about, is the election of 
neo-Nazi parties to European parliaments. Now this concern is 
shared at the highest levels of the European Union.
    Just 4 weeks ago, the EU Commissioner for Home Affairs, 
Cecilia Malmstrom, the counterpart for our Attorney General, 
said, ``Not since the Second World War have so many extremist 
political movements had such a place in so many elected 
parliamentary assemblies. In some countries we also have neo-
Nazis elected. If this trend continues the next European 
elections for 2014 could strengthen these forces, and we should 
not underestimate what this will mean for the European 
project.''
    Now since you have heard about Jobbik, though more could 
and should be said, and about Svoboda, I want to speak about 
Golden Dawn in Greece to make clear why Golden Dawn is a neo-
Nazi political party. It combines an ideology of ethnic purity, 
anti-Semitism, and violence against minorities. Their published 
platform proposes that ``only men and women of Greek descent 
and consciousness should have full political rights.'' They 
have declared that the purity and preservation of the Hellenic 
race is of greater value than any individual person, and it is 
written that Jews are again ``absolute evil.'' So when you read 
this and you read reports that ``Mein Kampf'' is displayed at 
their headquarters that shouldn't come as any surprise.
    Golden Dawn's leader, however, has denied the Holocaust, 
saying there were no gas chambers or crematoria in Auschwitz, 
while at the same time another MP in their party who was the 
member of a rock band called Pogrom, they had a song called 
Auschwitz, among the lyrics to which were ``Auschwitz, how much 
I love it.'' Now days ago, this same party filed a 
parliamentary motion complaining that Greece commemorates the 
Holocaust.
    In October, a Golden Dawn MP read from the Protocols of the 
Elders of Zion in a parliamentary debate and later wrote, ``The 
fear of the Jews is obvious and this fact is enough for us to 
realize that we are on the right path.'' And as has been widely 
reported, vigilante groups of black-shirted Golden Dawn thugs 
have terrorized dark-skinned people in Greece whether they are 
there legally or undocumented. The immunity of three Golden 
Dawn MPs was lifted in order to prosecute them for 
participating in such acts of violence.
    Now this violence also goes far beyond vandalism. Just last 
month a 27-year-old Pakistani was stabbed to death. Police 
discovered a variety of weapons along with dozens of Golden 
Dawn leaflets at the home of one of his assailants. This is a 
party that received 7 percent of the vote and is now polling at 
around 10 percent. Now if such violent bigotry was supported or 
even just condoned by one out of ten Greeks that would already 
be alarming, but unfortunately we are seeing anti-Semitism and 
intolerance in Greece beyond Golden Dawn.
    Recent stories in the right wing Democratia newspaper have 
referred to one Israeli of Greek origin as ``the characteristic 
type of Greek Jewish businessman who changes his appearance 
according to the circumstances of his work.'' And they 
described his father as a characteristic Jew for having 
business cunning. A popular Greek singer is currently 
advertising his show with posters all around Athens showing an 
intertwined swastika and Star of David. And the conviction of a 
self-professed anti-Semite under Greece's anti-racism law was 
overturned by the Athens appeal court which explained in its 
decision, and I am quoting from their decision, ``the defendant 
does not revile the Jews solely because of their racial and 
ethnic origin, but mainly because of their aspirations to world 
power, the methods they use to achieve these aims, and their 
conspiratorial activities.'' Two days ago the head of Greece's 
military tweeted that only ethnic Greeks should be allowed in 
the military academy, and his proposal was immediately 
supported by a Golden Dawn MP as well as a significant number 
of MPs from the governing New Democracy party.
    So when anti-Semitism and bigotry are tolerated in the 
media, advertisements, the judiciary, and the military, Jewish 
communities feel extremely vulnerable. And it is incumbent on 
political leaders to speak out regularly and firmly and to 
adopt zero tolerance policies for hate crimes and for hate 
speech. We welcome the Greek Government's establishment of 
special police units to combat hate violence, but strongly 
encourage the government to be more vocal about the dangers 
posed by Golden Dawn. Regrettably, Prime Minister Samaras has 
only one critical statement about Golden Dawn on his official 
Web site, condemning the slapping by a Golden Dawn MP of an MP 
of the far left Syriza party.
    I began with a quote from a European leader. I want to end 
with something from a Greek leader. This is from the leader of 
Greece's Socialist party, which participates in the governing 
coalition, who recently said, ``We are seeing a form of 
Mithridatism in Greek society today with regard to fascism.'' 
And he was referring to a king who ruled Anatolia two millennia 
ago and took small doses of poison to innoculate himself. And 
Mr. Venizelos continued, saying, ``There is a gradual drop by 
drop dilution of the conscience, a loosening of reflexes.''
    So Mr. Chairman and members of the subcommittee, I would 
respectfully suggest that your voices can help counter that 
dilution of conscience, that loosening of reflexes, because the 
poison, that poison, the nature of Golden Dawn is known, and 
the question is whether Greek society and the Greek Government 
will respond with rejection or accommodation. So let us all do 
what we can to encourage rejection. And thank you very much for 
the honor of appearing before you today.
    [The prepared statement of Mr. Srulevitch follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much for the work of ADL and your 
leadership as well. Great testimony. Just a few questions and 
then I will yield to my distinguished colleagues. Let me begin.
    Rabbi Meyer, in your statement you talked about the second 
level of anti-Semitism that thrives in the shadow of the first 
and runs through the veins of European society, to use your 
quotes, to the university leaders, policy makers and decision 
makers. And you talk about how with this second level of anti-
Semitism the horrors of the Holocaust have not dampened it, and 
it has not only survived but thrives in Europe today, and you 
say as Jews we have very good reason to worry. My hope is--and 
we do have large numbers of members of the media and some 
watching by way of video telecast--this needs to be a warning, 
and if you would like to elaborate on that as well.
    And Chief Rabbi Bleich, you mentioned Mark Levin. I 
traveled with Mark Levin, the executive director of NCSJ, in 
1982 to Moscow and Leningrad. And I will never forget, not only 
did we meet with refuseniks and did our level best--and he was 
a tremendous leader and still is--to try to get the Soviets to 
allow Jews to leave, but I will never forget we went to Kazan 
Cathedral, which was a museum on atheism, and the Muslim faith, 
the Christian faith, and the Jewish faith were mocked. And a 
whole streaming group of Young Pioneers, little children, came 
walking through with their kerchiefs, and we heard some of the 
translation and it was all about how stupid religion was and 
how evil it actually was. And it was a wake-up call, and of 
course many churches and synagogues were turned into museums on 
atheism.
    Now our earlier testimony spoke to the issue of aggressive 
secularism which is making the understanding of the Jewish 
people harder by people who almost, as Solzhenitsyn said about 
militant atheism in the Communist model, a more aggressive 
secularism also discounts faith as trivial or worse. And then 
we have as was said earlier by one of our witnesses about this 
radical Islamists being a root cause. So you have all of these 
competing views. And I think the secularism and the Islamists 
creates a very volatile and potent synergy of hate.
    So your thoughts on that and any others who would like to 
speak to that issue of this second level of anti-Semitism. 
Rabbi Meyer?
    Rabbi Meyer. Yes, I have in the written testimony, I have 
indeed spoken about how I feel we have a good reason to worry. 
And I would say my analysis of it is that those reasons are 
based on three realities and possibly four. I mean the first 
one being that clearly we start to see a limitation of 
religious rights, and very bluntly it actually means today that 
there are countries in Europe where a certain number of rituals 
are not permitted. As long as Europe is not too united we can 
actually sort out the problem. Because what is not permitted 
here is permitted elsewhere and this is how it works. If I 
cannot get the kosher slaughtering wherever I live, I can get 
it just across the border that might not be too far away.
    But there is certainly a fear, I think, within the Jewish 
community that if it becomes strongly united in terms of laws 
then that even won't be an option and therefore we might end up 
being actually left out with no possibility of practicing 
Judaism. So that is the first level of the worry. I think the 
second level of being worried is because of this legal aspect 
and what I call the cloak of respectability. When you take a 
feeling, an anti-Semitic feeling and you dress it up as a 
legal, intellectual debate, then you run the risk of detaching, 
entirely detaching the reality of the topic you are talking 
about from the reality of the people to a truly abstract level. 
And I think that in itself is very dangerous.
    Now the third level where I see a danger, and sadly I have 
to say for that I don't think there is much we can do, is the 
fact that we are fewer and fewer in numbers as Jews in Europe. 
The decline of the Jewish community is extremely strong, and 
what it means is that for most European, talking about Jews is 
an intellectual exercise that doesn't relate to a human reality 
because they don't really know Jews. Jews are not really part 
of the popular culture. They might have been part of an anti-
Semitic trend that has existed over the century, but we are not 
really part of the popular culture.
    I just give you one very simple example some years ago. For 
Hanukkah there was commercials--and I remember I was in 
France--with something like: ``Light your Hanukkah candles.'' 
And they have made a survey asking people, what does that mean? 
What do you understand of that advert on the billboards? And 
people answered they thought that Hanukkah was the brand of the 
candles. Because there is no knowledge. That is what I mean, 
when there is not enough Jews to create a real knowledge of 
what Judaism is. And therefore, any sort of discussion on 
Judaism, on Jewish issues such as the one we had in Germany 
about circumcision becomes a purely intellectual one 
disconnected from a human reality. And I think when you start 
to disconnect a debate from a human face and from a 
confrontation with someone is front of you as a human being and 
it becomes a purely theoretical exercise, then that is where it 
opens door for all sorts of very slippery roads, and I think 
that is in that sense that I feel particularly worried.
    Mr. Smith. Let me ask Mr. Fellegi. When Chief Rabbi Metzger 
dedicated Hungary's oldest synagogue in Obuda--I could be 
mispronouncing that--in 2010, Prime Minister Netanyahu said, 
``the reopening of this synagogue is a true symbol of the 
Jewish renaissance in Hungary.'' I wonder if you could, in 
light of Jobbik and its virulent anti-Semitic views, if you 
could speak briefly about the renaissance and the reaction of 
Prime Minister Orban to Jobbik and his view in terms of 
combating anti-Semitism.
    Mr. Fellegi. Thank you very much, Mr. Chairman, for your 
question. I think it is very relevant and important. I would 
put this question into the perspective of two things. One is 
the level of sensitivity in society toward racism, xenophobic 
views and within this anti-Semitism. This relates to the points 
that the Rabbi made just a minute ago that the important thing 
is to make sure that society understands the framework in which 
all these atrocities happen in our societies, and we have a 
clear understanding that there has to be a zero tolerance 
policy toward racism of any kind.
    The other thing that is important is to make clear that 
there are at least two interconnected levels of frameworks of 
understanding and making actions against anti-Semitism and 
racism. One is civil society, the NGO world and all those 
people who take up the issue, and make sure that through 
education and through civil actions and organizations, society 
can be educated into a more tolerant and more sensitive 
situation. And the other is what your question was basically 
about is, is the political reaction, what government is doing 
or not doing vis-a-vis racism and within that anti-Semitism.
    In terms of our civic society duties and our situation, 
indeed, as I mentioned in my brief opening statement but I 
elaborated on this in my written statement, there has been a 
huge revival of Jewish life in Hungary which is very promising 
and it has been welcomed by all the political parties in 
Hungary. The important part of it is that the official 
Hungary's track record is not impeccable, in certain cases we 
were slow in denying or denouncing actions that can be deemed 
as racist or anti-Semitism. But the overall track record of the 
country, I think, is positive and it is improving. While at the 
same time, what we cannot deny is there is an increase of anti-
Semitic atrocities in the country, in verbal and physical as 
well, but rather more verbal.
    So what I would reply, very briefly, is that Prime Minister 
Orban, last summer, gave an interview to a German magazine 
called Focus, in which he announced the zero tolerance policy 
toward racism and anti-Semitism. And let me just highlight 
another point, because there is a long list of potentially 
quoted statements by Hungarian politicians denying and 
denouncing anti-Semitism and anti-Semitic acts, but let me just 
refer to the Prime Minister's statement in Parliament he made 
after the incident with this Jobbik MP, Mr. Gyongyosi, who 
wanted to list Jewish representatives and government people as 
national security risk for Hungary. And he made it very clear 
that Hungary will not tolerate such acts and any form of anti-
Semitism, and the government's job is to fight this. Thank you.
    Mr. Smith. Yes.
    Mr. Srulevitch. I just had a few comments on Hungary. Mr. 
Fellegi is right that the government has been making progress 
on this issue, that they have made statements condemning anti-
Semitic actions. However, one concern is that they haven't yet 
made clear that Jobbik is not simply a political competitor but 
that Jobbik is a threat to Hungarian democracy. When your 
colleague Joseph Crowley, Representative Crowley, wrote a 
letter to Prime Minister Orban last spring with concerns about 
statements of anti-Semitism and homophobia in Hungary, the 
response that he received from the Prime Minister was a request 
for help in shutting down an American based Hungarian language 
Web site. Mr. Fellegi mentioned kuruc.info as being one of the 
prime instigators of anti-Semitism in Hungary.
    And while that may be true, it is also true that one can 
find on Jobbik's Web site the ``Protocols of the Elders of 
Zion.'' One can find on Jobbik's Web site examples of Holocaust 
denial, something for which a specific individual had been 
convicted in Hungary. But I don't speak Hungarian, and these 
are things that I am able to find on the Hungarian Web site. So 
there is, as Mr. Fellegi said, there is more that can be done. 
But we do need to also recognize the steps that have been 
taken. After there were three instances of hate speech in the 
Parliament, the Parliament did change the law to allow the 
speaker to punish the person who was inciting.
    When after Mr. Gyongyosi's statement there was a civic 
demonstration against hate speech, the government did decide to 
send a representative. That was a very important step, 
something that we hadn't seen before. So again these are 
important steps, but the step of really identifying and 
targeting Jobbik as a threat to Hungarian democracy is the one 
we would like to see.
    Mr. Smith. Very briefly.
    Mr. Fellegi. Yes. If I may I would like to add to Andrew's 
point, fully agreeing with his assessment of the situation in 
terms of Hungary. It needs to make more to make sure that the 
situation is not developing into the wrong direction. Let me 
just add to this point. I found the exact statement by Prime 
Minister Orban referring to Mr. Gyongyosi's statement in 
Parliament requesting this Jewish registration issue. ``As long 
as I am in this post no one in Hungary can be harmed because of 
their faith, convictions or origin. I would like to make it 
clear that we Hungarians will protect our Jewish compatriots.'' 
Then adding that ``Hungary has suffered dictatorship, and 
nothing or no one will derail Hungary from the democratic 
conviction.''
    So this is very clearly a statement which shows that the 
mainstream Hungarian political forces from the left to the 
right fully understand that xenophobia, racism in general, and 
when it appears in politics especially, is against democracy as 
such. It is about the total democractic values of, and history 
of these countries. So the real issue here is to fight for 
democracy and at the same time, through democractic means, 
beating racism. Thank you.
    Mr. Smith. I will come back to a couple of other questions, 
but I yield to Mr. Marino.
    Mr. Marino. Thank you, Chairman. Gentlemen, thank you for 
being here today, and it is truly an honor for me to be having 
this dialogue with you. I am not going to direct my question or 
questions to any particular individual, however, please feel 
free to chime in at any time. I do want to preface with a brief 
statement, and I usually do not do this. As a prosecutor I get 
right to the heart of things.
    But my father was a man of few means, salt of the earth. He 
was a firefighter and a janitor to raise his family. He passed 
away shortly before I was sworn into Congress, but he always 
said to me, Son, it is very difficult to reason with stupid 
people. And I have twisted that a little bit, added another 
phrase to it, and I have said, it is very dangerous because you 
cannot reason with stupid, arrogant people, which is a deadly 
combination. And my son who is 13, we watch the news together 
and I try to refrain from voicing my opinion--I don't always 
have complete control over myself when I hear some things--
because I want to hear from him. And Victor has said to me on a 
couple of occasions, not facetiously--he is a very bright kid. 
He studies physics a great deal and space in general. And he 
says, you know something, Dad, there is a reason that 
extraterrestrials do not visit us here on Earth, because there 
is no intelligent life. And he was very serious when he said 
that.
    The President has an opportunity, the quintessential 
opportunity when he goes to Israel very shortly to let the rest 
of the world know and the good people of the world that we are 
going to stand by them and fight the bad people in the world. I 
think this is just an opportunity that he should take advantage 
of and speak very clearly and very directly about.
    But now my question is, what specifically can we do here in 
Washington, what can Congress do to, if not eliminate the 
problems that we are having that you have each so eloquently 
spoke about but at least mitigate it? And how do you get the 
point across to people who just do not want to listen to it? 
How do you deal with that? So anyone? Go ahead, sir.
    Mr. Silberstein. First of all, you should know that the 
world really listens to the United States. So when you in your 
contacts with other countries keep repeating how unacceptable 
it is in countries when they tolerate in any way both anti-
Semitism and other form of racism, constantly, I am sure this 
will have an effect.
    And let me add one thing which maybe only has a Swedish 
perspective. We have huge problems in Sweden with the fact that 
on Internet the hate that is spread there is beyond belief. And 
we have tried to do something about this. And I don't know the 
legal details about this, but the Swedish authorities say we 
cannot do anything because the servers are placed in the United 
States. And I guess it is hard for you to do anything either, 
but if anyone could look at this and see if there is anything 
that could be done. Because what is being published on the 
Internet, not the least about Jews, you would be terrified if 
you could read that. So please, if you can, do something.
    Mr. Marino. Now please bear in mind that our First 
Amendment to the Constitution here in the United States is very 
clear on freedom of speech. It does not mean that one has 
unfettered access to freedom of speech such as shouting 
``fire'' in a movie theater, which is one of the cases, but do 
you think that the courts, the Supreme Court should get 
involved in situations like this? Because evidently, if issues 
like this are raised in the House there are going to be appeals 
and lawsuits right straight to the Supreme Court on controlling 
the Internet and what people can say on it.
    Mr. Silberstein. I understand that this is technical. I 
know nothing about this. For me, being the president of the 
Swedish Committee Against anti-Semitism, when I see what is 
being written about me, about my son, about my family, and 
about so many other Jews, and they also incite, they want 
people to do things. I don't know enough about your laws here 
in the United States, but if there is any way you could do 
anything that would be so much appreciated.
    Mr. Marino. Chairman, may I have some more time? Thank you. 
Anyone else?
    Rabbi Baker. I would like, if I could, to join this 
discussion. We have often focused on the number of the problems 
that we see with anti-Semites throughout these places. I think 
it is important to recognize what may be equally important is 
the number of anti-anti-Semites, people that really respond, 
act, and speak out. And that is not so common. And there are 
still places where I think political leaders calculate that 
doing something on behalf of these concerns, these complaints, 
may be politically costly to them. Unfortunately that is true 
in too many places.
    Clearly there is a hate on the Internet that we see as 
ever-present. It simply replaced the kind of anti-Semitism that 
decades ago would be in broadsides or written in graffiti or so 
on. There are ways that go well beyond violating the principles 
of the First Amendment to encourage those who moderate what 
goes on the Internet to control, to limit, but also I think it 
reflects the importance of getting voices to speak out.
    I know that even as I say this we need to focus as well on 
specific steps that governments can take. And one cannot 
underestimate the importance of your voices here in Washington, 
of Congress taking these issues up with different governments, 
with your counterparts. It goes on, for example, in the OCSE 
parliamentary assembly. But I really mean in specific ways. 
There are proposals from Jewish community organizations in 
Hungary, for example, on the reform of the national educational 
curriculum which is ongoing. Prime Minister Orban who has been 
outspoken, generally, somehow still as it filters down hasn't 
found a way to incorporate this. This would be critical.
    We have heard about Sweden. They do an incredible job of 
monitoring incidents of hate crime, but the very institution 
that does this job is hampered because the government will not 
ask it to look more carefully as to who the perpetrators of 
these crimes are. Again, I think because it will point out as 
we heard, particularly in southern Sweden, that much of this 
comes out of an Arab or Muslim community, and that would 
require specific actions to be taken.
    The issue of kosher slaughter has been raised. The reality 
is that in various countries even it if it is possible to 
appeal to religious freedom traditions, Jewish communities say, 
``We won't do it. It will create a climate of anti-Semitism.'' 
In the Netherlands, the Jewish community said we can't oppose 
this on the principle of religious freedom because we fear that 
more Dutch citizens are more disposed to principles of animal 
rights than religious freedom. So when you confront this, I 
think hearing from American voices, about how this plays out 
here, if you will, it would be a very helpful step.
    And then finally, we have identified the basic concern of 
Jewish community security. I am pleased at the OSCE that 
literally today the chair-in-office and the director of ODIHR 
have written to the German Minister of Interior, who has 
offered to play a facilitating role to organize a European-wide 
conference under the OSCE auspices to focus on security. The 
very basic element comes even to just financial support for the 
need, for involving police and law enforcement. There is much 
that we have done in this country that can be replicated. We 
shall try to press these good examples so other countries can 
come forward, this will be an opportunity. And again it is a 
place where the U.S. sits around the table, where Members of 
Congress sit together with members of Parliaments of other OSCE 
countries. So those specific steps hopefully can be advocated 
and I trust implemented.
    Mr. Marino. Let me just add that I am now becoming a member 
involved in the NATO Parliamentary Assembly and I have been to 
my first meeting, and we sat down of course with 27 other NATO 
members. And I will certainly take this up when appropriate 
with the 27 other nations and have a frank discussion about 
this.
    Chairman, does anyone else want to say anything? May the 
Rabbi speak?
    Rabbi Bleich. Yes, a few things about the questions that 
were asked. First of all, it will sound funny, but I think that 
there should be a way that the Congress should find some tool, 
since most of what is going on, what is based on these servers 
here in the United States and is being used for anti-Semitism 
overseas, it may be allowed in the United States, but overseas 
in many countries incitement and racial hatred is illegal. It 
is not included in freedom of speech. And there should be, I am 
sure, a way, a creative way to find to limit these servers that 
are maybe based in the United States, but are literally or 
virtually if you have a breaking of law in other countries 
throughout the world by inciting anti-Semitism and hatred.
    I want to mention just something that the chairman 
mentioned before about the religion and the question of 
atheism. In Ukraine, which I don't believe is strongly unique 
but is quite, quite strong, the religious community has 
actually come together in a very, very strong and organized 
way. There is a Council of Churches and religious organizations 
that is basically representative of 95 percent of the faithful, 
different religions in Ukraine. And if you have 80 percent of 
the population consider themselves religious, it is probably 
one of the more powerful NGOs today in Ukraine.
    And I am one of the founders and also co-chair, and we have 
come together many, many times to counter not only anti-
Semitism but anti-Islamism, Islamophobia and other racial and 
other xenophobic acts or rhetoric that has come up in Ukraine. 
So it is quite interesting that today the religious community, 
I think, is one of the more outspoken, and I think that is 
something concrete that can be and should be mentioned by the 
United States Congress when they are negotiating with Ukraine. 
And there is so much to negotiate with them about, to just put 
in some honorable positive mention about the good things that 
are happening, and I am sure they will accept the criticism a 
lot better that way.
    Mr. Marino. Well, thank you. And Rabbi, just to conclude, I 
sit on the Judiciary Committee and I am vice chair of the 
Internet Subcommittee, so perhaps we can address that as well. 
Thank you. And Chairman, thank you so much for giving me the 
extra time.
    Mr. Smith. Oh, thank you very much. We do have to end the 
hearing in a moment or two. There is another hearing coming 
into this actual hearing room. But I just want to just bring up 
a couple of final things. Michael Horowitz was very helpful and 
instrumental in promoting the importance of this hearing and I 
want to thank him publicly. But also, he had an idea that I 
hope all of us take back too, and that is that there is a 
compelling need for highly visible visits, and in some cases it 
will be revisits, by heads of state and very high ranking 
members of government to synagogues in their respective 
countries, particularly in the capital cities throughout 
Europe, to speak out against anti-Semitism.
    And one of our action items that we will undertake here as 
part of this committee will be to write and to make that 
appeal. If you have been there, great. Go back. The time has 
come to go back and to really speak out. And Rabbi Baker 
pointed out the huge increase of anti-Semitic acts in France, 
and they need to thanked, frankly, for at least chronicling and 
being willing to come forward with the information, but it is a 
very disturbing piece of information at that. So those kinds of 
high visibility contacts, I think, would have an impact.
    And I do have a lot of questions but we have run out of 
time. But if there is anything any of you would like to say in 
conclusion as we conclude this hearing, I want to thank you. 
Without objection, there is a letter from the Simon Wiesenthal 
Center from Mark Weitzman that will be included in the record 
without objection.
    Reverend Dr. C. Welton Gaddy, president of Interfaith 
Alliance, has sent a letter of support of this effort signed by 
50 eminent individuals, many of them representing leading 
religious and human rights organizations. That also will be 
made a part of the record.
    Would anyone like to just make a concluding remark? We will 
leave it at that. Thank you so much and we will continue on. 
This will be the first in this Congress of what will be a 
series of hearings on combating anti-Semitism. It is not the 
last. Thank you.
    [Whereupon, at 12 o'clock p.m., the subcommittee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
